<html>
<title> - [H.A.S.C. No. 111-4]SEXUAL ASSAULT IN THE MILITARY: VICTIM SUPPORT AND ADVOCACY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                          [H.A.S.C. No. 111-4]

 
      SEXUAL ASSAULT IN THE MILITARY: VICTIM SUPPORT AND ADVOCACY

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 28, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
49-634                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                David Kildee, Professional Staff Member
               Jeanette James, Professional Staff Member
                     Rosellen Kim, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, January 28, 2009, Sexual Assault in the Military: 
  Victim Support and Advocacy....................................     1

Appendix:

Wednesday, January 28, 2009......................................    53
                              ----------                              

                      WEDNESDAY, JANUARY 28, 2009
      SEXUAL ASSAULT IN THE MILITARY: VICTIM SUPPORT AND ADVOCACY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     3

                               WITNESSES

Horwath, Sgt. First Class Michael, Sexual Assault Response 
  Coordinator and Victim Advocate, U.S. Army.....................    10
Katka, Capt. Daniel, Sexual Assault Response Coordinator, U.S. 
  Air Force......................................................     9
McKennie, Chief Petty Officer Tonya D., Victim Advocate, U.S. 
  Navy...........................................................    11
Watterson, Laura, Former Airman, U.S. Air Force..................     4
Whitley, Dr. Kaye, Director, Sexual Assault Prevention and 
  Response Office, Department of Defense; Teresa Scalzo, Senior 
  Policy Advisor, Sexual Assault Prevention and Response Office, 
  Department of Defense; and Robert Coombs, Director of Public 
  Affairs, California Coalition Against Sexual Assault, beginning 
  on.............................................................    38

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    57
    Katka, Capt. Daniel..........................................    61
    Whitley, Dr. Kaye............................................    64
    Wilson, Hon. Joe.............................................    59

Documents Submitted for the Record:

    Testimony of Suzanne Brown-McBride, Executive Director, 
      California Coalition Against Sexual Assault................    83
    Two articles on Lauterbach case submitted by Mr. Turner......    86

Witness Responses to Questions Asked During the Hearing:

    Ms. Tsongas..................................................    91

Questions Submitted by Members Post Hearing:

    Ms. Shea-Porter..............................................    95
      SEXUAL ASSAULT IN THE MILITARY: VICTIM SUPPORT AND ADVOCACY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                       Washington, DC, Wednesday, January 28, 2009.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good morning, everybody. We are delighted to be 
here this morning and to have you all here.
    Before we get started, I just wanted to introduce the 
members of the Personnel Subcommittee. This is our first 
meeting, and we wanted to give you a chance to get to know 
them.
    I am Susan Davis. I represent the area of San Diego, 
California. And our next ranking member is Dr. Vic Snyder. Vic 
is from Arkansas; Loretta Sanchez from California; Madeleine 
Bordallo from Guam; Carol Shea-Porter from New Hampshire; Dave 
Loebsack from Iowa; and Niki Tsongas from Massachusetts.
    And Joe Wilson, who is the ranking chair on the committee, 
will introduce the Republican members.
    Mr. Wilson. Thank you, Madam Chairwoman. And it is an honor 
to be here with you, and I look forward to working with you on 
behalf of the soldiers and sailors and Marines and airmen in 
our military, the men and women who, indeed, make it possible 
for us to have the freedoms that we enjoy.
    I am grateful to be here with fellow members. With me is 
Congressman Walter Jones of North Carolina. Congressman Jones 
has very extensive military facilities in his district. Tom 
Rooney is our rookie freshman. We are very grateful to have him 
on board. Mary Fallin, the former Lieutenant Governor of 
Oklahoma; I want to thank her for her impending service on this 
committee. And we have a visitor who is here today, Mike 
Turner. Mike is the former mayor of Dayton, Ohio.
    And I would like to point out that I am very grateful that 
I represent the Second District of South Carolina, which 
includes Fort Jackson, it includes Parris Island, the Beaufort 
Marine Air Station, also the Beaufort Naval Hospital. But I 
have to tell you that my greatest appreciation is that I have 
four sons serving in the military, so I appreciate seeing these 
uniforms in front of us today.
    Thank you very much.
    Mrs. Davis. Thank you.
    And I also wanted to ask unanimous consent--we will have a 
few members joining us. So I wanted to ask unanimous consent 
then for the non-committee members who are participating, they 
will also be asking questions. Without objection? Hearing none, 
okay, thank you.
    Today's hearing will be the first of a series of hearings 
the subcommittee will hold this year looking at sexual assault 
in the military. Sexual assault is a complex problem, where 
most, if not all, aspects are interrelated. Such a topic does 
not lend itself to a single hearing. So, as a result, we have 
chosen to hold multiple hearings on discrete topics so that the 
members and witnesses can have in-depth discussions about 
various issues to build towards a comprehensive understanding 
of the problem. This will help guide our deliberations on what 
can and should be done next.
    Today we will be focusing on victim advocacy and support. 
Our next hearing will look at current and planned Department of 
Defense (DOD) programs to prevent sexual assault. I would like 
to say that we are encouraged by the level of commitment, 
resources, and expertise that the services are applying to 
prevention programs to educate service members and change 
cultural norms. And, finally, we will hold a hearing to examine 
how sexual assaults are prosecuted by the military.
    No one can deny our responsibility to ensure that victims 
of a sexual assault receive all the support that can be 
provided following an attack. The Department of Defense has 
made significant improvements in recent years to the depth and 
breadth of services available after an assault since the 
implementation of a new policy in 2005. But the question we 
need to ask is, has enough been done? What more can be done?
    This hearing will look at how the Department of Defense 
currently handles victim advocacy. We are very fortunate to 
have an impressive first panel. These are individuals who deal 
with the very real needs of victims of sexual assault.
    Our first witness is Laura Watterson. In 2001, Laura was an 
airman on active duty when she was assaulted by a fellow 
service member. She will tell her story of what she had to 
endure, usually by herself, after the assault.
    Laura, we thank you very much for your willingness to share 
your experience with us. We are humbled by your courage that 
you have displayed by coming forward. We know it is not easy, 
and many victims do not feel comfortable doing that. Thank you.
    Next, we have three witnesses from the services. These are 
not policy wonks. These are people who have helped individual 
victims in the aftermath of an assault. I would like to thank 
the services for dispensing with their usual policies and 
procedures regarding rank and vetting to make these service 
members available to the subcommittee. Their participation--
your participation--will add greatly to our understanding of 
what victim advocates do on a daily basis and what resources 
they need to do even more.
    Captain Daniel Katka is a sexual assault response 
coordinator, or SARC, from the Air Force. He has worked as a 
SARC both in the United States and while deployed overseas, for 
both operational and training units.
    Sergeant First Class Horwath has served as both a unit 
victim advocate and as a SARC in the Army, both here and while 
deployed. While serving in Iraq, he found himself performing 
the duties of both the SARC and as the first responding unit 
victim advocate.
    And Chief Petty Officer (CPO) Tonya McKennie has served as 
a sexual assault victim intervention advocate for the Navy, 
both in the United States and while deployed.
    Again, thank you all for being part of this hearing.
    Our second panel will include two witnesses from the 
Department of Defense's Sexual Assault Prevention and Response 
Office (SAPRO), Dr. Kaye Whitley and Ms. Teresa Scalzo, as well 
as Robert Coombs, the public affairs director of the California 
Coalition Against Sexual Assault (CALCASA). And I will make 
more introductions later.
    I want to reiterate that the purpose of this hearing is to 
focus on victim advocacy and support. Other issues will of 
course come up, but I would like to save in-depth discussions 
on prevention programs and prosecution for our later hearings, 
so that we can give each of the topics the attention and the 
discussion that they deserve.
    Mr. Wilson, would you like to have a few words?
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 57.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis.
    And, as we have begun, we have been joined by another 
subcommittee member, Congressman John Kline of Minnesota. 
Congressman Kline is retired, but of course he still is a 
Marine colonel, and very proud of it, as you can tell from his 
pin.
    Today's hearing continues the work this subcommittee 
started several years ago to address the problem of sexual 
assault within the military. We began our efforts during 
Chairman John McHugh's tenure in response to increased reports 
of sexual assault at our military academies. In 2004, we 
required the Department of Defense to establish a task force to 
examine sexual harassment and violence in the United States 
Military Academy and the United States Naval Academy. We also 
asked for an assessment of the effectiveness of the corrective 
actions taken to address sexual harassment at the United States 
Air Force Academy.
    We followed these initial steps by expanding the mission of 
the Task Force on Sexual Harassment and Violence at the 
military service academies to include all of our Armed Forces. 
We then focused attention on strategies to improve the 
Pentagon's response to sexual assault. As a result, we required 
the Department of Defense to implement a comprehensive policy 
for the prevention of and response to sexual assaults involving 
members of the Armed Forces.
    In response to concerns we received from the field over the 
length of time it took to process forensic evidence, we 
required DOD to eliminate the backlog of the processing of 
forensic evidence collection kits and ensure that an adequate 
supply of rape kits are available for all military 
installations. We also made sure that military personnel who 
use forensic evidence collection kits receive training to 
ensure evidence is collected properly.
    Finally, working with the Congresswoman from California, 
Ms. Loretta Sanchez, we took an unprecedented and bold step to 
reform the Uniform Code of Military Justice (UCMJ) to establish 
a comprehensive and modern sexual assault law based on other 
federal laws and regulations that effectively addressed sexual 
assault.
    These legislative actions point to this committee's 
consistent, thoughtful, and aggressive approach to addressing 
the issue of sexual assault in the military. Throughout this 
process, we have looked to the experts to help us find the 
right solutions, and we have worked with the Department of 
Defense to put in place policies that address both prevention 
and support for victims of this devastating crime. This has not 
been an easy task, but our commitment to protecting the health 
and welfare of our service members is unwavering.
    To that end, it is my understanding that the purpose of 
today's hearing is to focus on the support provided by the 
military to victims of sexual assault and to assess whether 
DOD's programs meet the needs of the victims or not.
    I sincerely appreciate the willingness of Ms. Watterson, 
who was a victim of sexual assault, to testify today. Although 
your experience took place prior to DOD's new, comprehensive 
policy, I hope you can give us your assessment of whether the 
current policies and programs would have helped you and where 
there still may be gaps.
    I continue to hear in media reports and from various 
individual assertions that this system isn't working well 
enough. I look forward to the views of the members of the 
second panel. How do you measure the program's success? Where 
does the system fall short? Have you identified areas that need 
improvement? How can we help?
    I hope that our discussions today will be informative and 
productive. My purpose today is to continue the dialogue 
towards improving the support services and care available for 
military victims of sexual assault.
    With that, I would like to welcome our witnesses and thank 
them for participating in the hearing today. I look forward to 
your testimony.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 59.]
    Mrs. Davis. Thank you very much, Mr. Wilson.
    And I want to mention that we have been joined by Mr. 
Patrick Murphy of Pennsylvania, who was part of the committee 
last year, has an esteemed military career, and also Ms. Jane 
Harman of California, who has been very passionate and 
interested in this issue. Thank you.
    And now, Ms. Laura Watterson, would you please start? 
Again, welcome. We are delighted that you are here.

  STATEMENT OF LAURA WATTERSON, FORMER AIRMAN, U.S. AIR FORCE

    Ms. Watterson. Thanks.
    I will just start off--this is very difficult. I don't 
usually come out of my bedroom, so coming all the way to the 
District of Columbia (DC) is a little--well, freaking me out. 
But, however, comfortable I may be, I think it is more 
important that I be here instead of worrying about my own 
problems, because this really needs to be done.
    Mrs. Davis. If you could just get a little closer to the 
mike, that would be very helpful.
    Ms. Watterson. Is that good?
    Mrs. Davis. That is better.
    Ms. Watterson. When I entered the Air Force, I seriously 
considered making it a career for myself. I wanted to travel, 
and I wanted to have a stable life and career. After I was 
assaulted, I no longer trusted anyone on base, and my career 
was no longer an option for me.
    Because of my Military Sexual Trauma (MST) and Post-
Traumatic Stress Disorder (PTSD) that resulted from it, I was 
forced to move in with my mother at the age of 30, because I 
could not take care of myself, keep a job, or feel safe 
outside, even in my own apartment. I lived on cereal and 
microwaveable dinners so I did not end up causing a fire 
because I forgot that I was cooking something.
    I was so depressed that I actually quit smoking, because 
the task of actually picking up a cigarette and lighting it was 
just too much. Of course my doctors were happy about that. But 
I had crying fits that were so powerful I could not even get my 
head off of wherever it landed because of exhaustion. One time 
my head landed in my shoe. And it would leave me hoarse for 
three days, from crying so hard.
    I have gained over 60 pounds, and I would go into violent 
rages. One time I ransacked the house to find every present I 
had ever given my mother, smashed them to bits, and dumped them 
on her bed. I would swear at her and throw things at her, as if 
I had Tourette syndrome. Any attempt at communication with me, 
I would just flip her off.
    This behavior was--I had never treated my mother like this 
before. I didn't understand why this was happening, and it 
ruined my self-esteem that much further.
    I have missed most family functions since being in the Air 
Force because I am unable to be around many people, especially 
people who are asking a lot of personal questions, like, oh, 
how is life, what are you up to, what are you doing? I mean, 
yeah, that kind of brings the family celebration down a little.
    It has been only recently that I would even leave my 
bedroom. I used to have very good credit, and I was proud of 
that. Because of not being about to pay my bills because I 
couldn't keep a job--just recently I had an attempt to have my 
wages garnished.
    I was too afraid to wear anything at all inviting, i.e., I 
would wear men's clothing, usually in all black in several 
sizes too big. I didn't want anyone to find me approachable. I 
am afraid of being assaulted again. I used to have my hair and 
makeup and nails matched every day, no matter what I was 
wearing, for years. Now, with the exception of today, I would 
only wear ChapStick and stick my hair up in a bun. I rarely, if 
ever, even painted my nails. I don't have the energy to look 
good, due to depression.
    I have had meltdowns in the supermarket because if I saw 
someone, especially if it was a man, I knew they were stalking 
me, and I would run from the grocery store.
    My marriage to a man who I am still friends with ended due 
to my PTSD symptoms. I didn't realize why I was acting the way 
I was, and neither did he. Nonetheless, it ruined our marriage. 
That is probably the hardest part.
    Excuse me.
    I began therapy at the Veterans Affairs (VA) because I had 
lost everything as a result. I began to see patterns and 
realized that I needed to get my life back. I realized that 
there are many other people who need to be helped to get back 
on track, as well. And that is also why I am a victim advocate 
myself, out of my bedroom and out of my own pocket.
    Part of my wellness is testifying today, forcing me to get 
out and do things that are challenging because they are more 
important. I will leave here today, but hopefully my message 
will not leave.
    If I had a caring SARC representative, I believe that I 
would not have ended up in the mess that I have ended up in. I 
was never given a representative. When I called to have some 
assistance, no one came. It got to the point that I called the 
15th Air Force commander, who was in charge of the entire 
western half of the United States and whose name was also in 
all of the sexual assault booklets and leaflets. And, since 
basic training, we had all been taught the same thing. I 
trusted in that.
    I also trusted because I had friends, before I went in, 
``Aren't you afraid of the sexual harassment, like the whole 
Tailhook thing?'' I was like, ``No. With all this media, why 
would they--you know, they must be really careful about it 
now.''
    The 15th Air Force commander said, ``Well, why don't you 
just keep it on base and have them take care of it?'' They 
wouldn't. I reported it, as I was supposed to, to my 
supervisor, as well as his. They said it would be taken care 
of, and I trusted that.
    Two weeks later, I was at work, and everyone was asked to 
stand up because there was going to be a pinning-on ceremony. 
That pinning-on ceremony was for the man who assaulted me to 
now out-rank me and become a supervisor. He was rewarded. This 
is when I got very angry.
    After fighting and calling everyone I could possibly think 
of, my commander finally called me into his office, with my 
supervisor here, the guy who assaulted me, my chair, and then 
his supervisor. So I was not even close to my supervisor or the 
one who should be protecting me or making me feel safe.
    I was told by my commander that I need to understand that 
different people have different personal bubbles. For example, 
when you go to England, sometimes when you meet people over 
there and you shake their hand, they like to hold onto your 
hand while they are speaking, and, as Americans, because we 
don't do that, it is uncomfortable for us. And that is how he 
told me that I needed to get over what had happened.
    That is when I began--I started drinking obscene amounts. 
Again, not knowing anything about PTSD, I started yelling at my 
husband over the stupidest things and having absolute fits of 
rage. And, again, this is not me.
    After this meeting I had with my commander, my SARC, or 
whatever he was called at the time, offered me therapy. I asked 
if it was going to be from someone on base or if it was going 
to be civilian. He told me it was going to be from someone on 
base. And from the treatment that I had gotten so far to try 
and help me, there was no way I was going to trust another 
military member to tell them how I felt and what was going on. 
So when I refused help, they had me sign a waiver saying that, 
because I refused treatment, I was not going to be eligible for 
any VA treatment or benefits. I, of course, did not realize 
that that was a load of malarky until several years later when 
I had to go to the VA because I couldn't handle my own life.
    I was also told that punishment of my perpetrator was not 
my business. I think that is--I don't know for sure what the 
real rule is about that now, but it is definitely my business, 
because I trusted them in the first place to take care of it. 
And promoting him two weeks later is not fixing it.
    All of the evidence that had been in my files about this 
was sanitized. This is a normal and way-too-often thing that 
happens with files, that things that are important that would 
have something to do with a claim are taken out of your files. 
So when you request them, over half of your file is no longer 
there. So trying to fight the VA to get benefits is next to 
impossible, because there is no proof anymore. Even if you 
reported it to the on-base police, even if you reported it to, 
like, anybody who would listen, like I did--nothing. This, 
again, makes us trust the government even less.
    I would be afraid. Even when the phone rang, that could 
make me cry. A few months ago I was at a friend's house and her 
washing machine turned on, and I had a panic attack from that. 
I don't know why. I have panic attacks all the time for the 
oddest reasons, I am sure. As I get further in my treatment, I 
will figure out why certain things trigger me.
    I believe that there are some good SARCs but not enough. 
The SARCs need to be on top of their game. A victim is not 
going to seek out help. They are going to do what I did; they 
are going to stay in their room and drink. They are not going 
to trust anybody else to go help them.
    I also believe that a SARC should not be a dependent of a 
military member, because the way that they would run their case 
may be far too influenced on their fear that, if they go 
against the way the command is saying things should be done, 
that it could be detrimental to their spouse's career.
    Excuse me just a second.
    The SARC also needs to be able to have complete 
confidentiality. The things that a victim says and does with 
their SARC needs to be completely confidential. It was maybe a 
month or two ago that a victim's SARC was subpoenaed to testify 
against their own victim. And, of course, they had no choice. 
Just like you are doing now, let the MST victims be involved in 
the training of SARC personnel. They know how it feels. They 
know what needs to be changed.
    And commanders also need to be accountable, when it comes 
to the rapist. We have plenty of rules that are not worth the 
paper that they are printed on. For example, if somebody has 
done a sexual assault, it is supposed to stay in their record. 
They are supposed to sign up as--I am sorry, I am blanking out 
the name, but whatever the civilian thing is that a sex 
offender has to register under, that is a rule. I have very 
little--in fact, I don't think I have ever seen that done, now 
that I am even do advocacy work for people that are still in. 
The next base they go to, that file does not follow them, so 
the next command does not know that they have done it. They are 
put in the same situation, and they know that they can get away 
with it.
    I do not believe a lot of the rumors and the little two-bit 
ideas that most people have about, ``Well, it is the alcohol. 
Well, then maybe women shouldn't be in the military. Well, 
well, well.'' I believe it is due to the consistent and 
rewarded attitudes of misogyny, thinking that women and also 
men--there are plenty of men who have been sexually assaulted 
that I have worked with as well. They need to be able to be 
safe, feel like they have been taken care of. And when you find 
out that a person who has sexually assaulted you, did it at the 
last base, where is the safety?
    I felt like I was entering the band of brothers as their 
sister. I was then an outcast, alone and challenged on 
everything I did.
    There is also the Troops to Teachers Act. So a person who 
has sexually assaulted a member, when they get out of the Air 
Force or Coast Guard, whatever, so they get to go be Troops to 
Teachers, and their file does not follow them because they have 
not registered as a sex offender. So they get to be in schools 
with children as a sex offender.
    More often than not, the reason--is that for me?
    Mrs. Davis. No, keep going.
    Ms. Watterson. Oh, okay. I am like, ``Am I talking too 
long?''
    Mrs. Davis. If you can try and summarize, that would be 
helpful, because we will talk to the other witnesses, and we 
may have a vote coming up as well.
    Ms. Watterson. Oh, okay, sorry.
    Mrs. Davis. But that is all right. We really are anxious to 
hear all that you have to say. Go ahead.
    Ms. Watterson. Okay. I will quit for now then and let 
somebody else speak. I will answer any questions you guys have.
    Mrs. Davis. All right. Thank you so much for your 
presentation. We will have some questions. And I think also 
what we want to do is have a chance to really engage together 
to understand what is different today, what of that that is 
different works and what of that doesn't. How you can add to 
that discussion, we will be very happy to hear about that. 
Thank you again.
    Captain Katka, if you and the other witness want to 
introduce yourselves and tell us a little bit about your 
experience with the sexual assault program, that would be very 
helpful. I understand that you don't have a long testimony but 
that you would just like to let us know where you fit into all 
these pieces.

   STATEMENT OF CAPT. DANIEL KATKA, SEXUAL ASSAULT RESPONSE 
                  COORDINATOR, U.S. AIR FORCE

    Captain Katka. Yes, ma'am, thank you.
    Good morning. And thank you, Chairwoman Davis and 
subcommittee members, for your interest in the issue of sexual 
assault. My name is, as stated, Captain Daniel Katka, and I am 
stationed at Lackland Air Force Base, San Antonio, Texas, where 
I am honored to have the opportunity to be a sexual assault 
response coordinator.
    I have had the privilege to be in the Air Force for 20 
years now. I enlisted in 1988 and commissioned in 2002. I have 
served as a squadron section commander for large units, as a 
military training flight commander for over 1,500 personnel. 
And, in those duties, I dealt with numerous personnel issues, 
to include sexual assault. Those experiences led to my desire 
to become directly involved in the care and advocacy of sexual 
assault survivors, for courageous people like Ms. Watterson.
    Thank you for sharing.
    In 2007, I was honored to be chosen as one of Lackland's 
two SARCs. Supporting Lackland's sexual assault survivors is my 
top priority. Air Force SARCs report directly to the 
installation vice wing commander. And reporting to the vice 
wing commander ensures top-level support and immediate access 
when needed.
    I also work directly with the Sexual Assault Response Team, 
or the SART, comprised of first responders from the chaplaincy, 
investigators, the Judge Advocate General (JAG), and the 
medical communities. The SART team meets monthly to review 
cases and discuss ways to improve response procedures.
    I recruit, screen, train, and supervise 70 victim advocates 
who are military and DOD civilian volunteers. Air Force victim 
advocates receive 40 hours of training to provide immediate and 
ongoing survivor support. Victim advocates and SART members are 
trained to understand restricted and unrestricted reporting 
options.
    The local San Antonio civilian community is also involved 
in supporting Lackland survivors. The local rape crisis center 
works with our survivors who prefer to receive one-on-one or 
group counseling off-base. We also have an outstanding 
partnership with a local civilian hospital for survivors who 
desire a sexual assault forensic exam. When utilizing the rape 
crisis center or the local hospital, survivors' restricted 
reporting option is still protected.
    The majority of the reports made at Lackland are from 
trainees, which encompasses the Air Force's youngest 
demographic. Training is essential to informing Lackland's 
nearly 50,0000 personnel about sexual assault. Lackland is the 
Air Force's largest training base, with the only Air Force 
basic military training center and numerous technical training 
schools. Every basic trainee receives a four-hour sexual 
assault awareness class. Airmen are presented an additional 
two-hour follow-on class during the introductory week of their 
technical school.
    To ensure our permanent personnel receive necessary sexual 
assault training, Lackland has over 200 sexual assault 
prevention and outreach representatives who conduct briefings 
and distribute awareness products.
    The annual Sexual Assault Awareness Month also presents an 
opportunity to educate the base. We have had numerous 
activities to heighten awareness--base walks and runs targeting 
the younger population; leadership luncheons; Take Back the 
Night vigils; banner campaigns at base entrances; and 
strategically placed information booths at highly frequented 
locations, such as the Base Exchange.
    The experiences I have had at Lackland prepared me for the 
SARC mission abroad, as well. One of the most rewarding 
opportunities I had was to deploy as a SARC in support of 
Operations Iraqi and Enduring Freedom at Al Udeid Air Base in 
Qatar. Most Air Force SARCs are DOD civilians, but, to ensure 
contingency and deployment capability, 30 are military members.
    In the area of responsibility (AOR), it is vital to have a 
robust sexual assault training and awareness program to ensure 
all know, regardless of military branch, that the SARC is there 
to support them. With strong base leadership support, I 
provided Sexual Assault Prevention and Response (SAPR) 
information at weekly in-processing briefing, reinvigorated 
monthly case review meetings, trained new SART members, and 
started new awareness campaigns using base organizations such 
as the Airman's Group, First Sergeants Association, and the 
Desert Chiefs Group. I also supported Al Udeid's geographically 
separated unit, Eskan Village in Saudi Arabia.
    It is a profound privilege for me to be here today, 
Chairwoman Davis. And it is very important that we have these 
kinds of hearings, to keep our most important resource in the 
forefront of our minds, and that is our human resource. Thank 
you very much.
    [The prepared statement of Captain Katka can be found in 
the Appendix on page 61.]
    Mrs. Davis. Thank you very much, Captain.
    And if we can, as quickly as possible because we do have a 
vote on and we want to hear from both of you quickly. And then 
we will come back and have the questions.

 STATEMENT OF SGT. FIRST CLASS MICHAEL HORWATH, SEXUAL ASSAULT 
      RESPONSE COORDINATOR AND VICTIM ADVOCATE, U.S. ARMY

    Sergeant Horwath. Good morning, Chairwoman Davis, 
Congressman Wilson, subcommittee members. I am Sergeant First 
Class Michael Horwath. I have been in the Army for 22 years, 
currently assigned to Fort Hood, Texas, with the Fourth 
Infantry Division, Fourth Combat Aviation Brigade.
    I have been working with the sexual assault program with 
the Army since 2004, after graduating from the Defense Equal 
Opportunity Management Institute, and I have been assigned to 
Fort Hood as an equal opportunity advisor. At that time, the 
program manager had mandated that all the equal opportunity 
advisors would become a part of this program, either as a 
victim advocate or a sexual assault response coordinator. 
Having had close ties to a victim of sexual assault and having 
a teenage daughter at the time, I was more than happy to step 
up and become a part of this community.
    We spent most of 2004 coming up with programs to push 
awareness to the soldiers. We were using a draft copy of the 
Army Regulation 600-20, Chapter 8, Army Command Guidance. We 
pushed that as hard as we could, got the soldiers aware of the 
program. We did a lot of sexual assault surveys to find out 
what the awareness levels of the soldiers were.
    In 2005, I deployed to Camp Taji, Iraq, where I was 
assigned as the camp's sexual assault response coordinator. I 
was responsible for 4 brigades, 52 tenant agencies. It was 
double duty for me because most of the tenant agencies didn't 
have victim advocates, so I was required to respond to as their 
victim advocate. I was also required to respond for any sexual 
assault on camp that was reported to an alternate agency.
    Upon redeployment back to Fort Hood in November of 2006, I 
started working hand in hand with the contracted civilian 
Sexual Assault Response Team. I would fill in for them when 
they needed SARC help, I would fill in for them when they 
needed trainers, and I would work with them as a liaison 
between the military commands and themselves.
    In 2007, I was selected as a first sergeant to go be 
redeployed to Camp Taji, Iraq; continued my collateral duty as 
a SARC while I was over there this last time; returned in 
November of this year and have continued working hand in hand 
with the civilian team that works the Fort Hood sexual assault 
response since then.
    I have a 21-year-old daughter and a 19-year-old son, both 
who are active-duty Army, both deployed right now. And I am 
comforted and confident that this program is there for them; 
that, if something as traumatic as a sexual assault was ever to 
happen in their life, that this program that I have been a part 
of for the last four years would be there to see them through, 
to help them overcome the trauma that would take place in their 
life and get them back to their day-to-day business of being 
soldiers.
    I want to thank you all for allowing me to be here today to 
share my observations of how this program has evolved and grown 
over the past four years. I am extremely proud of the 
contributions I have been able to make with it, and I think it 
will just continue to become a better and better thing to make 
soldiers' lives easier when something as horrible as this 
happens.
    Mrs. Davis. Thank you very much.
    And, Chief McKennie, we will come back to you, of course, 
after we come back, but if you could give us a brief 
introduction, that would be great.

  STATEMENT OF CHIEF PETTY OFFICER TONYA D. MCKENNIE, VICTIM 
                      ADVOCATE, U.S. NAVY

    Chief Petty Officer McKennie. Good morning, Chairwoman 
Davis, Ranking Member Wilson, and distinguished members of the 
Military Personnel Subcommittee.
    I am Navy Chief Petty Officer Tonya McKennie. I enlisted in 
the Navy in 1988, and my rating is aviation electronics 
technician. I am qualified as both an air warfare and surface 
warfare specialist. And I am also married to a Navy chief, and 
we reside with our son, Jeffrey Devonte, in Chula Vista, 
California.
    I currently serve as my command's training legal chief 
petty officer for Fleet Logistics Support Squadron 30 at Naval 
Air Station North Island, California. I also serve as the 
command's sexual assault victim intervention advocate. The 
program that we use in the Navy is called SAVI. It is spelled 
S-A-V-I, and it stands for Sexual Assault Victim Intervention.
    Throughout my 20-year Navy career, I have been assigned at 
several duty stations, ranging from Florida; Maine; California; 
Japan; Guantanamo Bay, Cuba; and I have deployed to Italy with 
a U.S. Naval Patrol Squadron (VP), VP-11. My sea duty 
assignments include Persian Gulf deployments onboard the USS 
Kitty Hawk and USS Carl Vinson. In 2004, I reported to the USS 
Ronald Reagan, where I not only served as a production control 
maintenance chief for 350 technicians but also a sexual assault 
victim intervention advocate.
    After two successful deployments during Iraqi Freedom and 
Enduring Freedom aboard the Ronald Reagan, I reported to my 
current command. And I must say that, as I have continued to 
work with SAVI, it has been one of the most rewarding aspects 
of my Navy career. My work as a victim advocate has been 
absolutely awesome, and I plan to continue this as long as I 
can.
    I thank you for the opportunity to share my experiences 
with you today, and I look forward to your questions.
    Mrs. Davis. Thank you very much. I appreciate all of you 
being here.
    We will return in probably about--we just have one vote, so 
within 10 minutes.
    Thank you very much.
    [Recess.]
    Mrs. Davis. I want to thank you all for being here. We are 
going to go on the clock, essentially.
    The members, we have five minutes to ask a question and 
also to hear from you, and if possible, we may have an 
opportunity to get into some exchange really. And I would 
invite you all to chime in when you think it is appropriate.
    Ms. Watterson, clearly the system did not keep you safe. 
And I know that you believe it doesn't keep other members of 
the military safe today either.
    But the time that we are talking about was prior to some 
new policies that had been in place and with the work that you 
have done in your advocacy. I wonder if you could speak to a 
few instances, perhaps, where you think the system today would 
have served you better. And in those cases when you don't think 
anything that has been done would really have made a 
difference--I think you alluded to some of that in your 
testimony--but if you could go back and talk to us a little bit 
about that, that would be very helpful.
    Ms. Watterson. Well, one big thing is the confidentiality 
so that the victims do feel safe and able to tell them that, 
you know, ``I have insomnia, I am,'' you know, ``throwing up 
all the time, I am drinking a bottle of Jack Daniels a night.'' 
You know, all of that kind of stuff. They need to be able to 
feel safe that they can tell someone about that so they can go 
get treatment.
    And in my experience with working with active duty and also 
working with veterans recently, there is a big problem with 
many, many, many bases and commanders who have tried to brush 
off what the mandates and the laws are that have already been 
put in place.
    There is one commander, for example, who treated me like I 
was an absolute idiot. He was completely cocky about the whole 
thing. And I read off the mandates, like, this is what you 
should be doing for your troops and you are not doing it at 
all. And you are allowing other people--for example, I had one 
that was a male victim of MST and they were not protecting him 
as well. They were allowing people to walk by him and call him 
a fag, they were allowing people to beat him up because they 
were saying that he was a fag. He was being administered 
psychiatric drugs by his peers and not a medical professional. 
It was his peers. And he was still in training. He hadn't got--
it wasn't basic training but the training for his job; that was 
where he was.
    And it was--it was disgusting and it has been--I have had 
to call the Inspector General (IG), and I asked these troops 
and things like, ``Have you talked to your IG yet''?
    ``What is an IG?''
    ``Well, have you talked to your SARC yet?''
    ``I don't think so.''
    And a lot of the SARCs, they have the initial meet and 
``how are you doing'' and ``da, da, da'' and that is it. They 
don't call to check up and see how you are doing and let us 
make sure you get into the hospital and make sure your meds are 
correct. Basically to take care of them, make them feel like 
they have someone, because most of them, their families are 
very far away. And especially in training they probably don't 
have any friends either.
    But that is a large thing.
    The SARC needs to be able to have enough power to fight the 
commander when the commanders are ignoring and basically 
mocking the system that has supposedly been put in place. That 
is a huge, huge problem.
    Mrs. Davis. I would actually like to turn to our folks here 
as well and see.
    Could you respond and help us with that as well because I 
think there is a big question of whether the SARC comes to a 
commander and says, Listen, we have got a problem here and 
nothing happens.
    What kind of authority do you have to follow up?
    Captain Katka. Yes, ma'am. We report directly. At my base 
we report directly, and in the Air Force, to the vice wing 
commander, essentially the second on the base, which helps 
tremendously by the way.
    And so we are able to kind of go and interact with 
commanders, of course not tell them what they must do, but 
recommend highly with the vice--their understanding that the 
vice wing commander is who we report to. So it helps us 
tremendously in advocating for the survivor and whatever her or 
his needs are.
    Sergeant Horwath. We are very similar, ma'am. We do a 
monthly sexual assault review board, and we report everything 
that goes on, that is involved in the program, goes to the 
senior movement commander at whatever installation we happen to 
be on. For me, that happens to be the division commander, and 
it is reported up through there. And if there were any 
instances of anything like that going on, it would immediately 
come down. There is a lot of focus on command emphasis right 
now.
    Mrs. Davis. Quickly--I am out of time--I just want to get 
your response quickly.
    Chief Petty Officer McKennie. Well, the Navy where I am 
affiliated in San Diego, all of our SARCs are civilian 
personnel so they are not normally subject to military 
intimidation and have free rein and have a lot of leeway in 
being able to deal with any commanding officers and any 
military personnel. So in my experience, we do not have that 
problem.
    Mrs. Davis. I think we will want to follow up with that a 
little bit more and see how we might be able to hold them 
accountable in a career sense as well.
    Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman, and thank you all 
for your service and past service.
    Chief Petty Officer McKennie, I understand that the option 
for restricted reporting for sexual assault may be encouraging 
victims to come forward who in the past have been reluctant to 
report. From your experience, do victims often change from a 
restricted to an unrestricted report, and what factors would 
enter in?
    Chief Petty Officer McKennie. Ranking Member Wilson, sir, I 
have not had any experience in dealing with any of the victims 
that did desire a restricted report. However, for some 
individuals who come out of restricted series to unrestricted 
series, they have a year to decide by policy to come from 
restricted to unrestricted, and any evidence that had been 
gathered for them on their behalf during that time would be 
available, sir.
    Mr. Wilson. And again, thank you for your personal service. 
It was very inspiring.
    Sergeant Horwath, please walk us through how a victim 
advocate and a Sexual Assault Response Coordinator provides 
assistance to a victim once a victim requests help.
    Sergeant Horwath. Sir, once we receive the initial report, 
it will come up to the Sexual Assault Response Coordinator. We 
immediately take the victim, and if they need immediate medical 
attention, we take them to the medical care provider. Once we 
get them there, the victim advocates will show up.
    We work it so that the victim advocate in the Army, at 
least, in my brigade and the division, we ensure that the 
victim advocate is not from the same battalion as the victim in 
case they do want to go restricted. Once we have got them 
through the portion where they would make their choices of 
whether they want to continue on with it and do a forensic exam 
and so on, then it is a matter of the victim advocate is there 
to be that person's go-to, the victim's go-to person. We ensure 
that they go to their appointments. We ensure that they have a 
battle buddy to get them where they need to be, and from there 
it is just a matter of ensuring that they get counseling and 
the treatment that they need. And we stay with them through it 
until they come to us and ask us to no longer participate.
    Mr. Wilson. And the person knows how to access you and the 
team?
    Sergeant Horwath. In a deployed environment, we make a 
point of doing large campaigns. We will put up posters with the 
sexual assault response team's photos on it; it will have the 
SARC; it will have all of the victim advocates. We put them up 
in the dining facilities. We put them up in the laundry area. 
They are basically all over the camp so the folks know how to 
get to us if they need to.
    Mr. Wilson. Thank you very much. And Captain Katka, you 
were deployed as a sexual response coordinator. How did you 
ensure that the victim advocates available were trained in your 
AOR?
    Captain Katka. Yes, sir. In the Air Force, if you go 
through victim advocacy training, you receive what is called a 
special experience identifier in your personnel record, or 
better known as SEI. So when a deployed person goes overseas or 
SARC goes overseas, they can run--they can request that a 
personnel record is run on the people on the base, and those 
who have had that special experience identifier in their record 
will be noted, and then that SARC will know that person is a 
trained victim advocate.
    Additionally, when a SARC goes into the AOR--or at least in 
my experience, I also put a bulletin to the base: If there are 
any experienced victim advocates here, trained victim 
advocates, please come see me if you would like to serve, if 
for some reason if their experience identified didn't get 
updated in the system.
    Mr. Wilson. As a former JAG officer, myself, in the 
National Guard for 31 years, I am impressed with the ability to 
have restricted and unrestricted reports. How do you find that 
system working?
    Captain Katka. It is working fantastic, in my opinion. Last 
fiscal year 2008 we received 43 percent, in Lackland now, not 
in the AOR. I had 43 percent of our cases were restricted 
reporting cases. In the AOR, I had eight cases in four months, 
and three of those were restricted. It worked fantastic to be 
able to speak to a survivor and say, ``You think about what you 
would like to do,'' and he or she--it brought them solace.
    Mr. Wilson. I think it is very impressive to protect the 
privacy of individuals, and so I want to commend you on your 
helping to promote the policy and educate and inform the 
personnel of the availability. So again, I am very grateful.
    And respecting the chairwoman's five-minute strict rule, I 
yield back.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mrs. Davis.
    Ms. Watterson, I missed the year, the date of the incident 
that led to all of the problems that you have had, that you 
described for us today.
    Ms. Watterson. What was the last part you said?
    Dr. Snyder. I missed the date of the incident that led to 
the discussion that you gave us. What was the year or date of 
the assault?
    Ms. Watterson. Oh, of my assault? I just remember it was in 
2001. And I only remember that because it happened before 
September 11th. It was a good year.
    Dr. Snyder. Sergeant First Class Horwath, you mentioned 
Taji, and it has been several years since I have been there, 
but it is a bit like a boomtown, all kinds of personnel coming 
through, multiple services, even different nationalities of 
services, lots of private contractors, civilian local workers.
    How does this system work in that kind of environment?
    Sergeant Horwath. The system, as for how well it works, it 
works fantastic. The process of the system is the report comes 
in, goes to the Sexual Assault Response Coordinator, is 
delegated down to a victim advocate for the advocacy portion. 
The SARC would then report up to the next level, which for me 
at Taji would have been Multinational Division Baghdad and then 
goes to Multinational Forces Iraq where it is put into the 
database.
    Dr. Snyder. Can an Air Force personnel end up with an Army 
advocate?
    Sergeant Horwath. It is possible, sir. I would not turn 
anyone down for advocacy. I advocated for civilians, military, 
male, female, contractors.
    Dr. Snyder. Tell me about the contractors. How did that 
work?
    Sergeant Horwath. With the contractors, the way we worked--
and this is from my personal experience--was we gave them 
advocacy service, got them to the counselors because they fall 
under the program for all medical and processing while they are 
over there.
    Dr. Snyder. So if something happened to them at Taji, and 
so they come and see you or one of----
    Sergeant Horwath. Yes, sir. They will come to us. We were 
fortunate in that the agency they were contracted to also had a 
program internally. So we achieved the advocacy portion for the 
victim, and then the contractor processed it once the victim 
was comfortable with going back.
    Dr. Snyder. Have you ever been aware of situations where a 
higher ranking officer than the three of you sent down word 
of--to change your normal kind of process or procedure with 
regard to a specific individual who makes an allegation of 
sexual assault?
    Sergeant Horwath. No, sir. I am not.
    Dr. Snyder. Does your system, as it is working now, which 
you think is working very well, does it have those kinds of 
protections in it if you have got--does somebody have the 
ability to order you to back off?
    Sergeant Horwath. Starting at the division up to the core, 
at each echelon there is a program manager. If I felt I was 
being pressured in any way by a senior level commander, I would 
go to the program manager, and it would be pushed up to the 
next echelon as high as it needed to go.
    Dr. Snyder. Captain and Chief Petty Officer, do you want to 
respond to that question?
    Captain Katka. I have not received any pressure to reveal 
any kind of information or change procedures from a command. I 
think the closest I could maybe give an example of is one time 
a colonel was wondering about a case, and I said, ``Sir, do you 
have the need to know?'' And he goes, ``You know what? You are 
right. I don't have the need to know.'' And it was as simple as 
that. He knew exactly what the policy was.
    Chief Petty Officer McKennie. I can also comment on the 
same, sir. I have not received any pressure. I have had an 
incident where I was asked for information and I immediately 
responded it was--they were not on the ``need to know'' list 
and I immediately talked with my Sexual Assault Response 
Coordinator and received no other problems after that.
    Dr. Snyder. Thank you, Madam Chairman.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Madam Chairwoman. I 
appreciate your leadership, and I look forward to working with 
you on this subcommittee this term.
    I want to say I appreciate the testimony from all of our 
witnesses this morning, particularly to you, Ms. Watterson. It 
takes a great deal of courage to come to testify before Members 
of the U.S. Congress on a situation like you went through. And 
I want to thank you for your advocacy work. There is no better 
advocacy experience than to be a victim yourself. And I am sure 
you will find that out as you go along your way in this 
direction.
    I would like to direct my question to any one of the sexual 
assault response coordinators. I believe that you are all 
active duty, but I am wondering how this system of coordinators 
works for members in the National Guard. Have you heard any 
stories from colleagues about implementation in the National 
Guard? Oftentimes the support systems are designed for active 
duty without thought of the Guards.
    So I will begin with you, Captain.
    Captain Katka. Well, ma'am, I can't speak for the Air 
Force, of course. I do know that if a survivor, if someone is 
in the National Guard and they are on orders, they receive all 
of the same exact care in regards to the restricted reporting 
that an active duty member would there on orders.
    But in terms of the Guard and what their way ahead is and 
things like that, I don't know if I can speak officially to 
that other than to say that I believe--and you may qualify this 
in future panels with future leaders--I believe that there is a 
Guard, a separate Guard SARC course to respond to those.
    Ms. Bordallo. Sergeant.
    Sergeant Horwath. Ma'am, I have personally been involved 
with training the National Guard SARC at Fort Hood a couple of 
times when they come in to processing through for deployment. 
They go through the exact same sexual assault response 
coordinator's course and unit victim advocates course that 
active duty soldiers do.
    Chief Petty Officer McKennie. I have not had any personal 
experience with working with National Guard. There is a 
community solutions, a civilian component available in 
California that I could refer them to if I could not provide 
any assistance to them.
    Ms. Bordallo. Well, I feel if there are any rules or 
regulations in place at this current time that we have to 
include the National Guard. They are out there fighting with us 
shoulder-to-shoulder. So I would be interested to hear about 
programs and see that they are getting the same treatment.
    To all of the witnesses, from your experiences, what 
lessons learned can and should be applied to improve sexual 
assault victims' support in the military?
    Are all of the rules now from Ms. Watterson, from the time 
she was in, apparently there weren't all of these rules and 
regulations. Now many new ones are in place. Are they enough or 
do you see anything that should be included?
    Captain Katka. Well, ma'am, there is always room for 
improvement, to be sure. And although we have come a long ways 
from the time of Ms. Watterson, I do believe that we have work 
to do. Perhaps--and this is from my experience and again, maybe 
future panels may be able to answer this better than a layman's 
position in regards to the legal issues. When a victim comes 
forward in an unrestricted setting where he or she says, You 
know what? I want to go forward. I want an investigation, 
whatever. They sign the paper.
    Unfortunately, it is tough, as we all know, for a survivor 
to come forward and go through the litany of interviews. It is 
estimated that 25 to 35 times from start to finish through 
court and such you will have to tell your story. That is 
extremely draining and perhaps retraumatizing and 
revictimizing.
    In that setting, right now it is difficult once that ball 
gets rolling for that survivor to say, You know what? I want to 
stop. I am tired. I don't want to do this, family issues, as we 
heard from Ms. Watterson, and what have you.
    And again, I wish I had solutions. You know, we are taught 
in the military to come with a problem and a solution--and 
this, again, maybe this should go to other panels with regards 
to legal. So that can be an issue because there have been times 
in my personal experience where an individual originally had 
signed under restricted and then later on as they go through it 
is tough on them saying I really wish I could put the brakes on 
it, and it can be difficult.
    Ms. Bordallo. So that is understandable. So this happens 
not just in the military but in other cases as well. But you do 
feel there could be improvement.
    Sergeant, do you have any comments to make on that?
    Sergeant Horwath. Ma'am, I believe it is an ever-evolving 
thing that we are working with. The Army, in my personal 
experience, a lot of programs focus, and re-focus. This program 
will do the same, and it will continue to do that and focus in 
the areas as I have seen it do already. When we find something 
that is lacking, we change focus and attack that also. And I 
believe this program will continue to do the same.
    Chief Petty Officer McKennie. The Sexual Assault Victim 
Intervention Program in the Navy has afforded me a great 
opportunity to be very successful in supplying the support and 
guidance for those victims that I have dealt with. It is a good 
solid program. But as other programs, it is always evolving, 
and there are more things to come. I am sure of that.
    But as in use right now, it has really afforded me a great 
opportunity to--and the resources that are available under this 
program have been supreme in the recovery and restoration of 
many victims that I have worked with.
    Ms. Bordallo. Thank you very much. I hope as we go forward 
when the rules and regulations are in place that we perform 
them in the strictest ways.
    Mrs. Davis. Mr. Rooney.
    Mr. Rooney. Madam Chairman, first of all, I want to say to 
Ms. Watterson, you know, I was nervous for you when you 
testified. I think you showed a lot of courage. And as a former 
prosecutor at the Federal level and State level in Florida and 
as a former judge advocate, your testimony here--and I know 
everybody agrees with me, and I know you have probably heard 
this a million times already today in coming up here--it is so 
vitally important that you continue to tell your story and, you 
know, try to pave the way for in the future so other victims 
don't have to deal with what you are having to deal with. So I 
thank you for that, and I really appreciate your testimony here 
today.
    My question as a former judge advocate in the 1st Cavalry 
Division at Fort Hood, Texas, what is the process, just for the 
good of the group here, with regard to a situation like Ms. 
Watterson went through and coordination with the military 
police (MPs) and with the judge advocates, staff judge advocate 
and we are sort of looking at the other end of this spectrum. 
What is supposed to happen to the person who commits the 
assault? And I know in your story, obviously, it didn't work 
the way it was supposed to work. But with regard to the 
branches sitting at the table, what coordination do you all do 
with the military police and the staff judge advocate in a 
normal case?
    Chief Petty Officer McKennie. That is a very good question, 
Congressman Rooney.
    In the Navy as an advocate when I am dealing with a victim, 
my first and sole duty, of course, is to advocate for the 
victim. So the only interaction that I would ever have on 
behalf of the victim is to just put--be there for support and 
guidance while they are doing any interviews or going through 
the process, the legal process that they need to go through.
    So my interaction is solely focused on the victim 
themselves. So no dealings with the perp. Not my concern. My 
concern is that victim, and that is who I am there for.
    Sergeant Horwath. Speaking from personal experience, as a 
victim advocate against the same thing as CPO McKennie said, I 
focus on the victim as a Sexual Assault Response Coordinator. 
It is my job to have coordination with the JAG, the MPs. It is 
a point of the training that I go through. It is a point of 
something I have to do every time I set up a new sexual assault 
response team. I have to make those contacts, and I have to be 
able to receive that information. And I will be the one as the 
Sexual Assault Response Coordinator who will back-brief the 
victim on any information that is passed back to me through the 
JAG office, the Criminal Investigation Division (CID) office, 
the MP office. And it all comes through me as the SARC and will 
go directly to the victim from there. And I have never had any 
contention whatsoever with any of the agencies that I have 
worked with.
    Captain Katka. Sir, in the law enforcement realm, there are 
checklists. If a survivor would present themselves or a case 
would be, you know, investigated, there is a checklist for the 
investigator in security forces to call the SARC. We are 
actually on the top line. They would call us. We would ask them 
to not interview that survivor until our victim advocate gets 
there so that they can--have solace to know that somebody is 
there with them.
    In terms of the legal sides of it, the Air Force assigns 
what is called a victim/witness assistance program 
representative. That person is a liaison to tell that survivor 
everything that is going to happen should this go to court, or 
if it doesn't, what would it look like if the commander is 
going to assign judgment or punishment to the perpetrator or 
what have you.
    So that person is assigned to that survivor specifically.
    And myself, as the coordinator, is intimately involved with 
that victim witness program representative. So we kind of form 
this kind of hug, if you well, with this survivor so he or she 
is fully aware of everything that is going on.
    Mrs. Davis. Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chairman.
    As you know, we have been working on this issue for so many 
years now, and I think a lot of the task forces and the changes 
in the law, I hope, are helping. But I continue to receive 
information from victims and from people in the forefront that 
with respect to having somebody there in the field with 
everybody, that it is different between the services.
    For example, with respect to the Navy, I think you all sort 
of move around in a grouping and you get on a ship and you are 
there for however many days, 90 days, 3 months, what have you. 
So everybody sort of understands who the person is that is kind 
of in charge of taking care of things if some victim should 
emerge and everybody knows who to go to and you have the 
support system to help with that.
    But for example, with the Army, in particular, if someone 
is in combat, in the combat zone, let us say Iraq, we are 
filling positions with reservists, with National Guard, with 
pieces of volunteers from other units, that it is not 
necessarily true that an advocate is stationed or in a zone 
with a particular person. It is not that well known who that 
person would be or there is not that much emphasis placed on it 
because you are in a war zone, and other things are going on.
    So I would like to get some comment in particular from you, 
the Army, as to what are the challenges with respect to having 
these special advocates or special counselors assigned. What is 
the commitment to that? What could we do better to ensure that 
if someone is in Iraq--because we have had--I think now I want 
to say almost 600 reported assaults in Iraq or more at this 
point, the last number I checked. Given the difficulties of 
Afghanistan or Iraq, in particular, how are you coping with 
that and what are the mechanisms or the procedures you have 
used to identify that, the fact there is somebody to turn to if 
an assault takes place?
    Sergeant Horwath. Ma'am, I can only speak with my personal 
experiences working with the 4th Infantry Division. The policy 
is in place. There will be two unit victim advocates per 
battalion and a SARC for every brigade. When we deploy out, the 
SARC is the one who oversees the program. I have had several 
small units that have detached and gone on to different forward 
operating bases (FOBs) where they were away. I make it a point 
of my job as the SARC to contact whatever group is running that 
and find out who their victim advocate is and making sure that 
the chain of command and the soldiers are aware of it.
    Again, we do poster campaigns. We put it out as much as we 
possibly can. I can't make a soldier come forward and report, 
but I can definitely throw it in their face if there is someone 
available for them.
    Ms. Sanchez. What is the mix going on with respect to the 
Air Force in this? Because again, I think I am more familiar 
with--the Navy is more stable in respect to that. What do you 
see in the Air Force happening?
    Captain Katka. With respect to advocacy in the AOR, ma'am?
    Ms. Sanchez. Yes. Down all the way to the airman or 
airwoman who might be involved.
    Captain Katka. Yes, ma'am.
    There is a challenge, I will admit to you, in the forward 
operating bases. The GSUs, the Geographically Separated Units, 
and I will speak to that experience.
    Ms. Sanchez. And that is what I would like to hear about 
and any comments you might have as to how we might make it 
better.
    Captain Katka. I will try.
    In the base I was at, we had victim advocates without 
problem because it was such a large installation. But I also 
supported the geographically separated unit in Saudi Arabia. I 
think perhaps about 300 airmen were on that Army installation. 
So victim advocacy--the spirit behind the victime advocate 
program is volunteerism, all right, to keep people who really 
have a passion for this program to ensure those are the people 
who are serving us not for a performance report rating or what 
have you.
    So when we set up the GSU or when the GSU is there, if we 
don't have any volunteer victim advocates, it can be difficult 
to fill that victim advocate slot over there. We don't assign. 
We don't make people do victim advocates in the Air Force.
    What I did when I was over there before I left is I found 
out a month or two prior to me leaving who was going to be 
coming into that GSU, and I found out people's names, very 
frankly. And I called back to those bases and I asked them or I 
asked the SARC, ``Could you ask those people if they would like 
to volunteer to be a victim advocate in that arena.''
    Fortunately, it worked out. We got three or four victim 
advocates for that GSU in the next rotation. And I have made up 
a continuity binder for my successor to understand this is what 
I did. I highly encourage you to do the same. And that is how 
we began.
    Ms. Sanchez. Do you see that the volunteers--because this 
is based on volunteer. Do you see that it is mostly women 
stepping forward to volunteer?
    Captain Katka. Yes. At Lackland on my main base, we have 
approximately 65 to 70 victim advocates. We have about 15 that 
are male.
    Mrs. Davis. Ms. Fallin.
    Ms. Fallin. I, too, appreciate your coming to testify. It 
has been very interesting. Madam Chair and I were co-chairs in 
the Women in Military Task Force, so we appreciate having 
another hearing on this important issue.
    Ms. Watterson, I appreciate your testimony today, and I 
know it is very difficult to come forward but just would like 
to encourage you to keep telling your story so you can help 
other women as they go through this process, and hopefully your 
healing will continue to carry forth.
    I had a question for you. After listening to all of the 
testimony today by various officials and our victim advocates, 
do you feel like since your incident in 2001 that we have made 
progress in the military in establishing procedures and 
advocates and programs that you would find today more helpful 
than what was available to you back then?
    Ms. Watterson. To be honest, no. I have seen a lot of new 
mandates and a lot of new, you know, whatever, but the fact is 
that the majority of what I have seen and dealt with and heard 
from other survivors is that nothing has changed. They are 
still using the McDowell checklist, which basically they can 
turn it around and make it look like the person is lying. And 
so someone who comes forward and wants to report it could be 
charged with conduct unbecoming, filing false charges, and if 
either the victim or rapist or assaulter is married, they can 
be charged with adultery.
    That is a big reason why people do not come forward. And 
other women will see what happens to one woman about what 
happens about them, basically getting their lives torn apart 
just because they went forward and asked for help. They get 
stalked by the friends of the perpetrator. I don't see any 
change.
    Ms. Fallin. I appreciate those comments, and I hope the men 
and lady here will listen to those comments and hopefully make 
improvements on that.
    But the one I have been listening to, I feel like there has 
been progress made. And I appreciate the steps that you have 
taken in your various divisions, but I do want to ask some of 
the things that she brought up earlier today.
    She talked about if someone has been accused of sexual 
assault or rape that they might be moved to another military 
base. Is that what I was understanding you to say earlier?
    Ms. Watterson. They have the option of either changing 
jobs, changing bases, and they also have the ability to get out 
of the military on an administrative discharge.
    Ms. Fallin. You were saying that the files do not follow 
them. If I could ask you to comment on that, on the procedures, 
that if someone is accused of assault and if there has been 
something that has happened, do you move them to another base? 
Does their file follow them, or what is their procedure in 
that?
    Chief Petty Officer McKennie. Yes, Congresswoman Fallin.
    In the cases that I have dealt with of victims, there has 
been an opportunity for either to be moved. In some cases that 
I have dealt with as a victim advocate when I have made the 
needs and wants of the victims that I have been dealing with 
known, they have had an opportunity to being moved to a 
different department or division away from the perpetrator. In 
other instances, the perpetrator has been moved off the 
facility completely.
    It is always, in my experience in dealing with the victims 
I have worked with, it has always been the command's intent to 
make the victim as comfortable and be supportive as they 
possibly could.
    Ms. Fallin. Let me ask you about that real quick. So you 
are saying that the victim can request to be moved during the 
process of determining guilt or the other person accused could 
be moved?
    Chief Petty Officer McKennie. I apologize, ma'am.
    I make those needs and wants made available to the Sexual 
Assault Response Coordinator, and they make a recommendation to 
the command. It is an opportunity to them available. However, 
the command does have final approval over who will be moved.
    Ms. Fallin. So it is optional. And the reason I ask--and I 
see the Lauterbachs are here and I had an opportunity to meet 
with Mrs. Lauterbach on her daughter's case where she lost her 
life because she and her accused were kept in the same 
battalion, if I remember right; and that wasn't moved and she 
ended up losing her life. And so it is an important point that 
we do all that we can to separate the victim and the accused. 
And I know everybody has the right to due process, to be found 
guilty or not guilty. But if there is a situation where the 
accused feels like their life is threatened--excuse me, the 
victim, I should say--they should have those options of being 
moved.
    Let me ask you about the sexual assault.
    Mrs. Davis. We going to come back and have another round. 
Thank you very much.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Madam Chairman.
    I want to follow up on that very question that the 
Congresswoman asked because when I was hearing about what 
happened to the victim, I kept wondering what was happening to 
the alleged perpetrator. So what I heard on that testimony, 
that it is not necessarily so that the alleged perpetrator is 
removed.
    And I also wonder about the damage for the victim losing--
having to be the one to request the transfer, losing the 
friends, the security and the comfort of the job, the 
familiarity of the routine and allowing the perpetrator to stay 
in place.
    So I wanted to ask that question also. Is this something 
that the commander must do, or is it still optional? I know 
that you probably recommend that they be separated. But I 
didn't quite understand what actually does happen. Is there 
something in stone, something codified that says this is what 
they have to do, they have to be separated? And who leaves? Is 
it up to the victim about whether he or she stays and the 
alleged perpetrator has to leave?
    Could you go a little bit further on that? And I think, 
Captain, if you will tell me what happens in the Air Force, 
please.
    Captain Katka. Let me speak to a recent case.
    Recently--and I won't speak in specifics because it is 
still going on--a young lady presented and she asked that she 
be removed as the survivor. She is the survivor. As the Sexual 
Assault Response Coordinator in concert with the mental health 
provider, we were both able to write letters recommending to 
her functioning community that she go to a base of her choice 
to be around family members for support.
    And so she got what was called a humanitarian reassignment. 
And it was all predicated on her assault.
    Now, in other instances, I work in a training base and so 
there are training units where men and women obviously are 
together. And if there is an assault, and we will use a male-
female, a male assaulting a lady, there will be an automatic 
``no contact'' order given. Now as a SARC, I can't--I am not an 
authority in terms of this is what will happen. I am only a 
recommender. I am a liaison to the command. I help the command 
understand the survivor's situation, their mental well-being 
and things of what is important.
    So I recommend to them the no contact order, but it is just 
automatic that the survivor--or excuse me, the offender will be 
moved from that squadron into another squadron.
    It is hard to move perpetrators because they need to stay, 
often, to be brought up on charges, so on and so forth, at the 
base that they are assigned to. And quite honestly, in my 
experience, the victims have always wanted to be the ones to be 
moved in terms of the permanent party division so they could be 
around other families members at other continental United 
States (CONUS) locations. So I hope that helps.
    Ms. Shea-Porter. But ultimately it still is not a rule. It 
is a recommendation. And you hope they act upon their 
recommendation.
    Captain Katka. Ultimately, but future panels may help you 
understand that better.
    Ms. Shea-Porter. And Sergeant, do you have anything to add 
to that? What is your experience where you are, please?
    Sergeant Horwath. For the Army, there is an automatic flag 
placed on the perpetrator, which means they cannot move just 
because of the difficulty it would make in going forward with 
the prosecution if you moved the perpetrator around. It is 
optional for the victim. If they would like to be moved, we 
work with them. We work with the command as much as possible 
and we will move them around. I have never been refused to move 
a victim. It has always been made available.
    With the exception of redeployment, we will move them 
within theater if they are over in Iraq or Afghanistan. They 
have moved them around, but they don't redeploy them 
automatically.
    But the flag stands for the perpetrator to ensure the 
individual is there to be investigated and put through the 
processes that have to come forward.
    Ms. Shea-Porter. Sergeant, I want to ask you, I realize you 
have different sets of circumstances, but the rate of rape 
continues--at least reported rape--continues to climb in spite 
of these programs, and the Army has a much more significant 
problem than, say, the Navy does. And to what do you attribute 
that, and can you tell me that when recruits come into the 
Army, are they allowed to have anything on their record 
whatsoever that would suggest that he or she could be a risk to 
other troops?
    Sergeant Horwath. Ma'am, I have never ever been a 
recruiter. I am not aware of anything that would be looked at. 
I have no knowledge of that.
    My personal belief on the reason that you are seeing higher 
number of reports is because the program is working. The 
soldiers are being made aware of the program, they know that we 
are there to help them, and they are coming forward in higher 
numbers and reporting situations that may have gone non-
reported for a number of years.
    Ms. Shea-Porter. So you think there is a higher reporting 
of rape, Captain?
    Captain Katka. Yes, ma'am. I think it may sound 
contradictory, but I think it is a good story. I think the 
higher our rates go up, we hope--and it is anecdotal, of 
course--but we hope it is because young men and women are 
feeling more comfortable to come forward so obviously the 
numbers would be higher.
    Ms. Shea-Porter. Same to you, Petty Officer.
    Chief Petty Officer McKennie. I believe that the training 
that the Navy provides and the continuous training that we do 
every year, it does instill a confidence in our sailors to come 
forward and report any type of sexual assault.
    Ms. Shea-Porter. Ms. Watterson, do you feel the same? Let 
me thank you for being here and sharing your story. Do you 
agree with that that we have better reporting now?
    Ms. Watterson. From what I have seen and what I have dealt 
with honestly, I don't think so. I don't--I just don't think 
so.
    Ms. Shea-Porter. That is the purpose of the committee, to 
keep looking.
    Mrs. Davis. Ms. Tsongas.
    Ms. Tsongas. Thank you all. I appreciate very much your 
testimony, Ms. Watterson. As others have said, it has taken 
great courage, and we learned very much from it.
    Among other things, I think it reminds us, one, the assault 
in and of itself is horrible but our response to it can really 
aggravate that circumstance and how important it is, as we go 
forward, that we recognize our obligation to put in place 
mechanisms that have real teeth.
    One of the things as I listened that I am concerned about 
is the chain of command structure in the military works to our 
advantage in many instances, but it seems to me that in this 
area it is one which really works against our being able to 
respond in a way that is truly meaningful.
    So I have just a couple of questions.
    In terms of the reported assaults, do you keep any track of 
how often the assault is by a superior? I know that in the 
military academies, for instance, we heard reports of one upper 
classman, one class up could make a difference in a woman's 
willingness to report it, take it on in some way.
    So do you keep track, you know, keep records of how often 
it is a superior of any kind that is involved in assault as a 
perpetrator?
    Captain Katka. Yes, ma'am. We have in our tracking database 
ranks of both the subject and the survivor so we know exactly 
what the rank breakout is.
    Ms. Tsongas. Can you quantify percentages at all?
    Captain Katka. I would say approximately the survivors' 
status is--73 percent of the survivors are about E-1s through 
E-3s, and then the offender status is 54 percent E-1 through E-
3. So obviously the leftover would obviously be of the higher 
rank of the E-3.
    Ms. Tsongas. That would be how much? My math isn't great.
    Captain Katka. I am not good at public math either.
    Ms. Tsongas. How about for you?
    Sergeant Horwath. Ma'am, the Army uses a self-reporting 
system. All sexual assaults that are reported goes into one 
database, so they do have it available. It does have the rank 
of the alleged victim and of the perpetrator, so it is tracked 
throughout the Army. As far as statistics, I do not have any 
available with me.
    [The information referred to can be found in the Appendix 
on page 91.]
    Ms. Tsongas. I would like to see those, if possible.
    How about the Navy?
    Chief Petty Officer McKennie. As an advocate, I do not 
track members, and the Sexual Assault Response Coordinators 
track and keep files of any victims that happen in our area. I 
am not aware of any formula or percentage data that they have 
available to them.
    Ms. Tsongas. If there is any way of getting that data, I 
would appreciate it.
    [The information referred to can be found in the Appendix 
on page 91.]
    Ms. Tsongas. The other question I have is I happened to 
attend a session last year for those who are returning, wounded 
warriors who are returning, and happened to go over and speak 
to some of the women, several of whom who had been victims of 
sexual assault although that was not why they were in this 
setting. And one of them did comment to me that while she was 
in Iraq she felt more afraid of her fellow soldiers than she 
did of the enemy. So that told me that we have a serious 
problem, especially in the theater of war, and that whatever we 
are doing clearly to deal with the victim, those who are 
victimized, we really haven't put in place sufficient 
mechanisms to sort of alert women, help them figure out self-
defense mechanisms to empower them in some way as we go 
forward. And I think that is particularly important in the 
chain of command context. That is just a statement.
    I am wondering what you all have as leverage with your 
commanders if they refuse to take action after you have gone up 
the chain of command in reporting what you think should be 
appropriate action. If they do nothing, what can you do?
    Captain Katka. Could you explain the nothing? Nothing 
against the perpetrator? Nothing to help the survivor?
    Ms. Tsongas. Maybe against the perpetrator.
    So, for example, the story of the soldier who gets promoted 
in the face of your reporting, but what you can do to have a 
commander take this very seriously?
    Captain Katka. What we could do is--what we would do is we 
would interact with that commander, and obviously that 
commander would be aware of what happened.
    Now, I should point out that the interaction with 
commanders for a Sexual Assault Response Coordinator is going 
to be with the survivor's commander primarily. It wouldn't be 
with the perpetrator's. We are very survivor centric. We are 
victim centric. So everything that supports her, that is what 
we would take care of.
    In terms of the perpetrator's commander, admittedly very 
little interaction.
    But to help the survivor, obviously we would ensure that we 
would talk with our vice wing commander if necessary. That is 
base level commander, and we would bring it up to his attention 
to see if he needed more mentoring, if you will, from one 
commander to another.
    I hope that helps.
    Mrs. Davis. Mr. Johnson.
    Mr. Johnson. Thank you, Madam Chairman. I applaud you for 
holding this hearing today on this very important subject.
    Ms. Watterson, I want to convey to you my deep respect for 
having the courage to take on this kind of cause and to share 
your experience publicly.
    And every one of you at the table, I want to thank you for 
your service to the Nation.
    I will say, being--my background is in law. I have 
practiced law for 27 years. Most of that time I was a criminal 
defense lawyer, but also for 12 years of that time I was a 
magistrate court judge. And I find that it is bad when we have 
a culture in the military of ``boys will be boys'' kind of, and 
so there is not a real serious investigatory effort. And I know 
that that culture is changing, as it should.
    But I would hope that we would also keep in mind that some 
complaints of sexual assault are unmerited. And so therefore 
when we talk in terms of the victim, the perpetrator, the 
survivor, depending on what phase of the process that we are 
in, if it is pre-trial or pre-disposition, I think probably a 
better language would be the ``accused'' and the ``accuser'' 
instead of assuming that the accused is guilty by calling him 
or her the ``perpetrator.''
    Now aside from that, I do think that in the civilian world 
a deterrent for people committing sexual assault crimes is a 
vigorous law enforcement approach which begins, of course, when 
there is a call to the law enforcement agency; and most law 
enforcement agencies in the civilian world in a large 
department will have a sexual assault investigatory team.
    And I would like to know whether or not when a complaint is 
made, is it an untrained MP--untrained in sexual assault 
investigation techniques--that is brought to the scene, or is 
it someone who has been trained specifically to investigate 
these kinds of issues, collect evidence, crime scene unit. You 
know, how do we do that? Protocols for doctors. Are medical 
doctors trained to investigate or from a medical perspective 
and preserve evidence and document things?
    I mean, is that something that people are trained in? And 
in terms of chain of custody issues of the, say, rape kit, you 
know. Are there protocols for passing those on up the chain?
    If we have a vigorous, well-trained enforcement and 
investigatory apparatus, what is your opinion as to that issue? 
And I know you all get the cases--well, you get the case at 
some point after a complaint is made. Tell me how you get that 
case, how does it come to you?
    And then Captain Katka, you mentioned something about you 
ask that no one talk to the survivor first without you being 
the one or your office being the one to speak with the 
complainant. Can you explain the reasons why and whether or not 
that includes the police investigating the matter first with a 
exposure to the complainant?
    Captain Katka. Yes, sir. The reason that we want to ensure 
that we get to speak with the survivor first is, first of all, 
remember the restricted and unrestricted reporting options. We 
don't know what she had said or he had said at this point. So 
to preserve her privacy or his privacy, to get to them to help 
them understand the reporting option is key to understand that.
    Mrs. Davis. I am sorry. I am going to have to cut you off 
because I have been cutting everybody else after five minutes. 
Mr. Johnson, we will come back on another round, and we will 
have some more time, I think, for additional answers.
    Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    Ms. Watterson, I also want to, as everyone has, thank you 
so much for what you have done. Coming forward, I know, has to 
be incredibly difficult. Your story is very moving. But what is 
important is you are bringing light really to an issue in a 
process that is really about people. It is about people like 
yourself, and we can't make it right if we don't know what the 
problems are; and your doing that makes a difference for 
others, and hopefully it makes a difference for you.
    I have with me today--I want to tell you also, Ms. 
Watterson, that I agree with your comment that we don't have it 
right yet. It is not fixed. And that is why this committee--and 
I want to thank the Chair for undertaking this issue. We know 
this does not just happen in 2001, but as many members have 
said, this is an ongoing issue and we don't have it right.
    I have with me today Mary Lauterbach. She is the mother of 
Maria Lauterbach, who was a Marine who, upon coming forward 
with an allegation of rape, was subsequently murdered, and that 
was in 2007. And in working with the Lauterbach family, we have 
basically seen that there are two different types of issues we 
have to deal with. There is the cultural issue--and it is a 
strong cultural issue that needs to be addressed in the 
military with the issue of this being acceptable and the issue 
of the treatment, how sexual assault victims are treated.
    The second is our rules and regulations, what the processes 
that we go through. And there are some things that we find 
along the way that need to be changed. For example, from the 
Lauterbach case, two things that we just changed in the last 
National Defense Authorization Act applied to protective orders 
because in Maria Lauterbach's case, her protective order was 
allowed to lapse. So we changed that in the last law so that 
now will be permanent. And also the local authorities knew 
nothing of the protective order so that when she was off base 
they had no idea that there was an issue that was ongoing, and 
that has been changed in the last act that we did.
    But we need to learn more of these things and more 
culturally. And I want to thank Madam Chairman for undertaking 
this. I know she has met with Mary Lauterbach, and I want to 
thank Jane Harman for her work on this. She has met with Mary 
Lauterbach, and we appreciate your advocacy on this.
    Now getting to that issue, we have two--we have culture and 
we have rules and regulations. I have two separate sets of 
questions for representatives of the military.
    I want to set this up by telling you that after Mary 
Lauterbach and she had the detailed report from the base as to 
their description of what had happened to Maria, the family was 
very concerned because it appeared that the base was saying 
that we had no knowledge that there was any risk to Maria, that 
in fact because they had no knowledge there was no protection 
that needed to occur.
    So from my office, I inquired, asking the Marines to 
explain to me how they could have no notice that someone is at 
risk when they are coming forward with an allegation of rape. 
And I know you are very familiar that the safety of the victim 
is very important. And I want to read to you part of the 
response that I got because I want to get your thoughts on it 
because it was very repugnant to me.
    When I got this response from the Marines, I thought it 
went right to the culture. And this letter is dated March 31st, 
2008, and it is from Lieutenant General Kramlich, and I asked 
this question:
    Doesn't a rape accusation inherently contain an element of 
force or threat?
    And then they go on in their answer to relate that 
according to their information, there were two sexual contacts: 
one being alleged rape, one being consent. And then they write 
this sentence, which I would like you to respond to. It says, 
``Lauterbach never alleged any violence or threat of violence 
in either sexual encounter.''
    Now, I don't know how there could be a rape where there is 
not an allegation of violence or threat of violence. And that 
was my reaction, and it has been the reaction of the members 
that I have read this to.
    And I am certain that as you advocate for victims, you run 
into cultural issues and responses like this, which I happen to 
have from the Marines in writing.
    Could you each please respond what your thoughts are when 
you hear someone say that there was never alleged any violence 
or threat of violence in relationship to a rape?
    Mrs. Davis. This is to your personal experience. You are 
not representing the services here.
    Captain Katka. If I understand you correctly, just because 
there was no physical force, then there wasn't a rape. Is that 
a simple way of----
    Mr. Turner. No, they are acknowledging that there was a 
rape. But, see, the question that we had is there was a rape 
and that we believed that the victim, Maria Lauterbach, was 
therefore at risk for future violence. She'd come forward with 
the allegation of rape. And so we were inquiring, because there 
was a rape, didn't you know that there was a threat of 
violence? And they wrote back and said that Lauterbach never 
alleged any violence or threat of violence in either sexual 
encounter, meaning, of course, referring to the rape itself. 
That the rape itself did not include an allegation of violence 
or threat of violence.
    And that is just so shocking to me, and I would think it 
would be in your experience. And this is--again, this is dated 
March 31st, 2008, from Lieutenant General Kramlich, U.S. Marine 
Corps.
    What are your thoughts?
    Captain Katka. Well, in regards to--I notice the time going 
down, ma'am.
    Mrs. Davis. Right. Your time is essentially up. But can you 
quickly respond to his question?
    Captain Katka. That astonishes me, too. I don't know how 
much quicker I need to be.
    Sergeant Horwath. The same, astonished that someone would 
make that remark.
    Chief Petty Officer McKennie. It is an unfortunate remark; 
and a victim of sexual assault is that, a victim of sexual 
assault, regardless of what anyone thinks. As an advocate, and 
that is what I advocate for for that victim.
    Mr. Turner. Madam Chair, thank you for the extra time for 
them to finish.
    Mrs. Davis. Thank you.
    Ms. Harman.
    Ms. Harman. I thank you, Madam Chair and the members of the 
committee, for welcoming me back.
    As you know, I served on this committee for six years. One 
of the members at the time was Pete Geren from Texas, who is 
now the Secretary of Army and who is taking an extraordinary 
leadership role on this issue. I want to commend him in 
absentia but also want to commend the Army's representative for 
what you are trying to do.
    I want to repeat something from Ms. Watterson's testimony. 
I don't think it was in her written testimony.
    She said, ``Where is the safety? I felt as though I was 
entering a band of brothers. I was then an outcast, virtually 
alone.''
    I can't imagine a better summary. And I just want to say to 
you, Ms. Watterson, and I certainly want to say to the 
Lauterbach family, America failed you, the military failed you, 
and Congress failed you. And it is past time to get this right. 
This is an epidemic.
    A woman in the military is more likely to be raped by a 
fellow soldier than killed by enemy fire in Iraq. I have said 
this before. It is still true. And I am glad that we are 
working on victim care, but what we need to work on more is 
prevention. And that is why Mr. Turner and I reintroduced our 
joint resolution. And that is why I hope, Madam Chair, that 
this committee will move on to adopt this resolution, which 
calls on the military to develop an effective strategy for 
investigation and prosecution of these crimes.
    These are not just crimes against individuals. These are 
crimes that impair our national security. And so I hope in the 
30 seconds I have left that I can just make the point that I 
don't want any more women or men who are victims of these 
crimes to be virtually alone, to feel that they are outcasts 
and to feel afraid to come out of their bedrooms and have, you 
know, horrific personal consequences from this.
    So I just would conclude by saying America has failed; and 
I hope that this committee, a great committee with a great 
tradition of defending soldiers who stand up and sign up to 
serve their country, will take this issue very seriously, pass 
this joint resolution and do as much as we can to stop this 
epidemic.
    Thank you, Madam Chair. I yield back.
    Ms. Watterson. Can I say one more itty-bitty thing?
    With all the victims that I have worked with, at least 90 
percent say that the way they were treated after the assault 
was far worse than the actual assault and far more devastating. 
And this is still with all the new rules and the new 
regulations. This is still. And so I just want to make that 
point.
    Mrs. Davis. Thank you, Ms. Watterson. I appreciate that. 
Because I wanted to come back to you. I mean, that is a 
stunning statement. And what we are trying to do is to figure 
out where the gaps are. Are there different tools? We have some 
wonderful examples of some SARCs here, people that have a great 
commitment and a passion for serving the people that you are 
working with.
    You mentioned at one point in your testimony that you have 
concerns that there should be more sexual abuse help and 
support to victims from outside the system, not from inside the 
system. You mentioned spouses, if they have a special problem, 
in terms of nevertheless being independent in their assessments 
and independent I think in their advocacy, which means going 
all the way up the chain as well.
    Is that part of the problem as you see it? That we need 
people from outside the system?
    Because we also could suggest that that could be a problem 
certainly in theater. In a combat theater, that would be an 
issue. Where is that piece that you are looking for as you've 
see it now and worked with other advocates? Is that still 
critical in your estimation, or is it more the training, the 
people who choose to select, because it is a self-selection 
process in many ways, people who volunteer? Again, we have some 
wonderful examples of people who are choosing to do that. How 
can we fix this part of it?
    Ms. Watterson. I am not saying it is every SARC or every 
base, but the reasoning that I am saying that it needs to be 
civilians and people that are not, say, dependents of someone 
in the military, just because, first of all, it will make the 
victim feel more secure with actually telling the whole truth, 
talking about their symptoms, thinking that someone is actually 
on their side. They are far less likely to come forward to 
another military member, since they were just assaulted by 
another military member.
    So the other reason is because there is too much room for 
intimidation and with several SARCs that I have to basically do 
their job for them, because they were not doing their job for 
the victim. They don't have enough power to say, you know, what 
are you doing to the command? You are not following the rules 
and the regulations and all the mandates and all these rules 
that have come, you know, come up. But there is just far too 
much intimidation factor. They do not want to lose their job, 
or they don't want to endanger the job of their spouse, et 
cetera.
    Mrs. Davis. Could I ask the rest of you to speak to that?
    Because one of the things you said, Captain Katka, is that 
you or a SARC has no real link to the accused--in the words of 
my colleague--and that you are not able to necessarily track 
that, what happens in those cases and to find that there is 
some way, some accountability there for people acting 
appropriately, not just within the rules but acting to be 
certain it that doesn't happen again, certainly not with that 
accused but within the unit as well.
    Where do you see that? Is there a tool that would be 
helpful? Ms. Sanchez and I talked earlier about career 
advancement. Is that an issue? What is it?
    Captain Katka. Perhaps I also misspoke earlier to say that 
there is no tracking of the perpetrator for the accuser, 
because we do. We do bring updates to the survivor, continually 
working with the legal system. So there is that, and maybe I 
didn't communicate that good enough.
    Although we don't have authority--not authority, but we 
don't have decision-making power to do thus and so with the 
perpetrator, please understand that the vice wing commander--
reporting to the vice wing commander is essential. And we feel 
as though, because we have the vice wing commander's--the 
person that we are subject to, it helps tremendously; and I 
have seen case after case where we are able to use that 
authority to help us get things done on behalf of the survivor 
and understand what is going on with the perpetrator and such.
    Mrs. Davis. Any other follow-up comments, quickly?
    Sergeant Horwath. We run the same program, basically. And 
the legal system tracks the alleged perpetrator, and we get 
updates to give to the victim. We have no say in what happens 
to them, but we are not a part of the investigatory process 
either. We are there to be victim focused almost solely.
    Chief Petty Officer McKennie. One of the great things about 
the Navy, especially in the southwest region which I am 
affiliated, being an advocate for the victim, they do receive 
updates periodically from Naval Criminal Investigative Service 
(NCIS) or from the detectives that are handling their cases. It 
is their right, and they are aware of that when I first come on 
scene.
    One of the tools that we do in the southwest region to 
prevent intimidation or at least alleviate it as much as 
possible, as a advocate I am never in uniform, so they do not 
know any rank; and I always address myself by my civilian name. 
So they have no idea who I am, except that I am their advocate. 
And that tool works extremely well for us in the Navy. Having 
civilian SARCs who are not normally intimidated by military 
personnel is another balance that we use as part of our Navy 
program in the southwest region.
    Mrs. Davis. Thank you.
    Mr. Jones, we are going to go back to you. Thank you.
    Mr. Jones. Madam Chairman, thank you; and I want to 
apologize if any of my questions might be repetitive. I had to 
be out for almost an hour, and I didn't hear the questions from 
my colleagues.
    I am very taken aback by the testimony. I want to say to 
you, Ms. Watterson, that I regret what happened to you and I am 
sure other members have said that as well for a multitude of 
reasons.
    I got a call three or four years ago. Camp Lejeune is in my 
district, and I never will forget a lady from Alabama who 
thought that her daughter had been raped. I actually ended up 
meeting with the mom when she came to North Carolina from 
Alabama, and I also met with the daughter.
    I guess, to get to the point of what I am trying to ask, 
based on your testimony, Ms. Watterson, do you in the Navy, 
Army, Air Force--is the compassion there? From you, yes. I 
understand that. But when I heard this testimony--and I go back 
thinking of the lady who came up from Alabama. When I hear this 
testimony, somewhere in the process, the pain and hurt of the 
victim, it doesn't seem that up the chain, so to speak.
    And I am not trying to point my finger at anybody. You are 
the experts. I am not. I am just here trying to learn and 
trying to do what is right.
    But somewhere along the way what happened to Ms. Watterson 
should never have happened. And why would--has that changed? 
Where the person who committed the crime, if he in this 
situation--and I don't know the case. I do appreciate and 
understand testimony. I believe everything you said. But has it 
improved, that the victim is treated as a human being? Or is it 
because the military has the structure that it has?
    I will never forget what Secretary England, who I thought 
the world of, of being down at Camp Lejeune in 2004, 2005 and 
2006. And one of the companies returned from Iraq, and 
Secretary England was talking about we want to help you with 
PTSD and these kind of illnesses. And I promise you, when this 
one Marine stepped out, I thought the Colonel was going to 
faint. Because the Marine is not to show that he has got a 
problem.
    So has it changed?
    What year did you say this attack happened to you?
    Ms. Watterson. I am sorry?
    Mr. Jones. What year did this attack happen?
    Ms. Watterson. 2001.
    Mr. Jones. 2001.
    Can women be assured now--and maybe, in a few cases, men. I 
don't know. Can women be assured now that if it happens today, 
in 2009, that the system has changed such, that the percentage 
of those who would be hurt like this woman has been hurt is 
being reduced?
    Chief Petty Officer McKennie. Congressman Jones, I can't 
guarantee and tell you that all women in the Navy will be 
assured or all men will be assured that are victims. Because as 
long as there are evil people out in the world who want to 
perpetrate this crime, it is going to continue. But as an 
advocate what I guarantee from me as an advocate is that any 
victim that I deal with will receive as much guidance and 
support as I can physically muster for the entire time that I 
am their advocate.
    Because people are different in our society and they are 
from different backgrounds and there are some that are more 
compassionate than others. I understand that I will run into 
someone that is not compassionate to the victim that I am 
advocating for and that will increase my motivation to advocate 
for them even more, and I will do all that I can to ensure that 
as long as I am their advocate that they will get the support 
and guidance that they need or whatever requirements we need to 
do or whatever steps we need to make to make sure that they get 
that. We are going to do that, and that is not going to stop as 
long as I am their advocate.
    Mr. Jones. Chief, let me ask you or the Sergeant or the 
Captain--again, I apologize. I should have been here, but I 
could not help that. I was watching Ms. Watterson shake her 
head on a couple of comments I was making. Do you feel that in 
2009, compared to 2007 or 2005 or 2001, that the number of 
instances of rape that are being reported are up, down or there 
are still things happening that have not been reported? Do you 
feel better about the fact that those who are victims are 
coming forward and that they are being supported by the chain 
of command in comparison to what maybe it used to be? I don't 
know.
    Chief Petty Officer McKennie. Sir, I have been an advocate 
since 2005; and, in that time, my cases have increased. So I am 
confident that because of the training that we are providing in 
the Navy, because of the awareness that we are providing in the 
Navy, the tools that we are giving people to come forth, that 
that has helped increase the reporting. And I am glad to see 
that those numbers are rising, because that is more people who 
are no longer hiding that pain and shame and that they can get 
the help and guidance that they need.
    Mr. Jones. Thank you, Madam Chair.
    Mrs. Davis. Thank you, Mr. Jones.
    We have two votes. We should be back in about 20 minutes, I 
think. If I could beg your indulgence, we will finish this 
round with all of you; and then we will go on to our next 
panel. So are you all able to stay?
    Captain Katka. Yes, ma'am.
    Mrs. Davis. Thank you very much, and I hope everyone will 
return as quickly as they can.
    [Recess.]
    Mrs. Davis. Thank you, everybody, for waiting. We are going 
to return to the panel. We have a few members who are coming 
back. We want to finish up this round, and then we will move to 
the second panel.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair; and, once again, thank 
you to all the panel for being here.
    I have just one question. Because in the 12 years that I 
have been on this committee and in the Congress we have had 
this problem. I believe it is a major problem when we are a 
voluntary force in particular and when we are looking at 50 
percent of Americans being women and the fact that we need to 
draw the talents from that pool just as we do from the men. And 
I believe women should be in the military and that this problem 
is continuing to happen and has for so many years drives me 
crazy.
    We were able to pass, as you know, a new UCMJ section that 
dealt with this. I hear back from the prosecutors that they 
love using this new law and that they are more effectively 
using it to get the prosecutions they need.
    But, you know, I have always said that there are three 
things we need to do: One, change the culture; two, change the 
law so that we do prosecute and we can prosecute; and, three, 
work well with the victims who have had this happen and make 
sure that they don't lose their lives.
    So let's go back to the first one, change the culture, 
because this shouldn't be happening at all. I have zero 
tolerance for this. And it seems to me that no matter what we 
try, no matter how many rules we put on and how many 
administrative issues and everything, it all comes down to how 
the top is handling this, how the commander handles this and 
whatever, wherever it is, whether it is Iraq or whether it is 
an Air Force academy or whether it is a base, in Camp Pendleton 
in California, wherever it might be, that it is about how the 
chain of command deals with this; and they don't seem to deal 
with this very well.
    And so my question is to Ms. Watterson, who so bravely came 
forward today--and I thank you for that. Because, believe it or 
not, I personally know how difficult it is. It has been my 
contention that the only way we are going to make the command 
understand how important this issue is is that it is actually a 
section on every promotion that they receive. That in order for 
them to be promoted, they have to deal with what did you do 
about this, how much of this has happened under you, how come 
you were ineffective about this? And they don't get promoted if 
they don't take this seriously. Now that runs counter to so 
many people who say, oh, we just care about making fighting 
machines.
    Ms. Watterson, do you think that if these people in command 
that you go to thought that if they didn't handle this 
correctly or didn't make an attempt to handle it, if they 
thought that they would lose their ability to be promoted, that 
they might have taken this more seriously for you?
    Ms. Watterson. Yeah, yeah, this sounds like an excellent 
idea. That way, they are held accountable.
    Ms. Sanchez. Because they are not held accountable. This is 
not an accountability issue for the people in uniform. Some do 
it well; some don't do it very well. Some say, oh, the 
handshake was just a little too long, or take care of it 
yourself, or you are a big girl. And these are all things that 
I have heard from so many women who have been put in this spot. 
So do you think that that would make a difference if they 
thought that they wouldn't get promoted if they just told you 
to handle it yourself?
    Ms. Watterson. I think that would be a great incentive. I 
think that part of it should also be interview or contact with 
whoever the victim was and ask them how they were treated and 
if they think that everything was done fairly.
    Ms. Sanchez. Well, that would be part of it. I mean, the 
way we would judge whether this person, whoever was in command, 
actually really took care of it is that there would be input 
from those who had suffered the acts and had been treated one 
way or the other by this person.
    What about the rest of you? What do you think? Because you 
have probably come across some commanders who really care about 
this and really do something right away about it, and you have 
probably come across people who sort of move the pieces on the 
checkerboard around. What do you all think?
    Captain.
    Captain Katka. In the 10 seconds we have, a culture change, 
I would love to see it to be genuine. Disingenuous, using 
people as ranks and things like that perhaps would promote 
disingenuous culture change, rather than real culture change. 
Completely my opinion, but I understand where you are going.
    And then the criteria issue. I mean, what would you put in 
that promotion? What would be the criteria for that promotion? 
The statistics? If statistics are up, is it good on the 
commander or bad on the commander?
    So there are a lot of questions that I just immediately 
have that we probably don't have time maybe to get into.
    Ms. Sanchez. Thank you.
    Chief.
    Sergeant Horwath. I agree, ma'am, that if it were done 
right it would be an effective way of pushing the program 
forward.
    Ms. Sanchez. That it would not or it would?
    Sergeant Horwath. That it would.
    Ms. Sanchez. That it would.
    Sergeant Horwath. But, again, then it would be a threat; 
and that is just my opinion.
    Ms. Sanchez. I am just asking your opinion.
    Sergeant Horwath. It would be threats against someone who--
--
    Ms. Sanchez. It is not threats. It is sort of like, hey, 
this is important enough for you to be graded on.
    When you go to a class in college, if you are a smart 
student, you understand what the professor wants and what they 
are going to grade you on. And you tend to work on those issues 
that are going to get you the A if you care about the grade.
    Sergeant Horwath. I can see it being effective. We have 
blocks on the Army non-commissioned officer evaluation reports 
(NCOERs) for equal opportunity and things of that nature. So I 
can see that a soldier may look at that as being more important 
if they see it officially in their paperwork, sure.
    Ms. Sanchez. Thank you.
    Mrs. Davis. Thank you, Ms. Sanchez.
    Can you respond really quickly?
    Chief Petty Officer McKennie. I can. I believe that it 
would be effective, but it would also take training as well in 
combination with that so that it would be genuine and 
effective.
    Ms. Sanchez. Thank you. Thank you, Madam Chair.
    Mrs. Davis. Thank you, Ms. Sanchez.
    I think that we had a chance to sort of brainstorm that a 
little bit and some of the downsides to it and upsides.
    One of the questions that I would just ask in trying to 
close this out, there, obviously, is some uniformity within the 
service that you are in. Although there are certainly 
differences in the way people respond. But there is not a lot 
of uniformity across the services. Do you think that there 
should be? Is this an issue that all the services ought to have 
very, very similar policies or is there enough uniqueness in 
the way people respond within that service that you think there 
ought to be true differences?
    Chief Petty Officer McKennie. Chairwoman Davis, I believe 
that each service, each of the services that have been 
represented today, in my opinion, because of the unique 
missions that we have in all of our services, that the programs 
that we have in place have shown effective in the experiences 
of each of the advocates.
    I do believe that we can learn from each other, and there 
are high points to each program that could be adopted into 
other service programs. But I do believe that part of the 
reason, in my opinion and as an advocate, that there are some 
differences in our programs is because of the missions that we 
serve.
    I deploy--as a sailor, I deploy six months at a time on a 
ship; and some of the parameters that are inherent in their 
programs might not be effective for us in what we do. Most of 
their brothers and sisters in arms are in Iraq. Most of our 
sailors are not. We do have some, but the majority of us are on 
ships or shore facilities. So I do think that we are unique in 
itself and that our programs in the missions that we serve have 
been effective enough so far and more improvements to come to 
be of great service to our brothers and sisters in arms.
    Sergeant Horwath. I agree with her, ma'am. I believe the 
uniqueness of each of our services requires a different 
program. But I, also--my personal belief is that there is 
enough of a sense of one that if I had a soldier who was based 
on an Air Force Base that there would never be an issue with 
them taking care of the situation for me. There is a closeness 
enough with the program that the basis is the same. It's about 
taking care of the victim and making sure that the process is 
moved forward.
    Captain Katka. On a large level yes, ma'am. In our joint 
environment I think it is imperative like many of our programs 
kind of marry so we can give survivor support no matter what 
the branch of service, of which we have done.
    On a smaller level, base to base, for instance, my base, 
Lackland Air Force Base, is the only basic military training. A 
large portion of the individuals that we help in my office are 
those that were assaulted prior to even coming into the 
military. That is different. That is unique to our base alone. 
So there may be supplements or those kind of things that need 
to be addressed just at my base; and, as my colleagues pointed 
out, there is differences there as well.
    Mrs. Davis. Thank you.
    Ms. Watterson, I wanted to just give you the last word, 
because we are so supportive of your coming forward; and I want 
you to have a sense of how important your testimony has been.
    I can tell from several things that you have said that it 
doesn't all resonate with you in terms of where we go from here 
and trying to deepen our commitment in this regard and having 
the kind of objectives and follow-through that is important. Do 
you have a last thought or concern that you would like us to be 
thinking about in the next few months that might change the 
environment that you see for men and women today?
    Ms. Watterson. To wrap it all up, this conversation that we 
are having right now I think is a very, very good start. I 
think that the SAPRO, those are all the main rules. And then 
little intricacies, depending on what is going on.
    But I think that representatives, like several from each 
service, there should be more meetings like this with 
survivors, with other SARCs, with, you know, whoever. But it 
needs to be like this, where we are all talking and can figure 
out what is best for everybody and then kind of trickle down 
into the little points that like, say, he was mentioning that 
are important at his base.
    So I think this is an excellent start, and thank you very 
much.
    Mrs. Davis. Thank you. Thank you all for being here. We 
certainly appreciate if you can stay for the next panel.
    We are going to have not so much long statements initially, 
but we are going to ask them if they can respond a little bit 
to some of the things they have heard here today. So if you 
would like to stay, we certainly welcome that.
    Could the next panel please come forward?
    Thank you, again, very much for being here. Thank you all.
    For our second panel we are pleased to have two witnesses 
from the Department of Defense's Sexual Assault Prevention and 
Response Office and one from the California Coalition Against 
Sexual Assault.
    Dr. Kaye Whitley is the Director of the Sexual Assault 
Prevention and Response Office, what we all have been saying, 
SAPRO. She holds a doctorate in counseling and human 
development. I also believe that this is her first appearance 
before our subcommittee. Welcome.
    Also from the Sexual Assault Prevention and Response Office 
is Teresa Scalzo. Ms. Scalzo is the Senior Policy Advisor for 
the office and is a former Director of the National Center for 
the Prosecution of Violence Against Women. Her purpose here 
today is to provide her subject matter expertise on the 
Department of Defense's policy of restricted reporting.
    And, finally, we were supposed to have Suzanne Brown-
McBride, Executive Director of the California Coalition Against 
Sexual Assault. However, Mother Nature was working against her; 
and she wasn't able to fly into D.C. last night.
    But we are very fortunate to have Robert Coombs, who did 
manage to arrive before the bad weather. Mr. Coombs is the 
Director of Public Affairs for the California Coalition Against 
Sexual Assault. Mr. Coombs will offer Ms. Brown-McBride's 
testimony and will be available for questioning.
    We thank you very much for stepping in, Mr. Coombs.

   STATEMENTS OF DR. KAYE WHITLEY, DIRECTOR, SEXUAL ASSAULT 
 PREVENTION AND RESPONSE OFFICE, DEPARTMENT OF DEFENSE; TERESA 
 SCALZO, SENIOR POLICY ADVISOR, SEXUAL ASSAULT PREVENTION AND 
  RESPONSE OFFICE, DEPARTMENT OF DEFENSE; AND ROBERT COOMBS, 
DIRECTOR OF PUBLIC AFFAIRS, CALIFORNIA COALITION AGAINST SEXUAL 
                            ASSAULT

    Mrs. Davis. In the interest of disclosure, it is also 
important to note that while the California Coalition Against 
Sexual Assault is here to provide an outside perspective on the 
Department of Defense's victim support and advocacy programs, 
they have and I believe continue to work with the Department on 
a number of areas related to sexual assault. We are very happy 
to have you and look forward to your testimony.
    Now, I mentioned earlier that we were going to ask you if 
you could share with us perhaps initially comments from your 
testimony, but if you wouldn't mind doing that with the group, 
your response to what you heard today. I know that certainly we 
had some wonderful advocates for victims, and they spoke very 
passionately I think about the work that they are doing. On the 
other hand, we had a survivor who continues to work with 
victims and would like to see more done.
    And I think everybody seeks improvement. No question about 
that. Could you share with us a little bit about your thoughts 
on what you heard today and help us by starting in that way?
    Dr. Whitley.

                 STATEMENT OF DR. KAYE WHITLEY

    Dr. Whitley. Thank you, Chairwoman Davis and Ranking Member 
Wilson. We appreciate the opportunity to be here today.
    And I do want to thank Ms. Watterson, because we all know--
all of us who work with victims know that this is a really 
difficult thing for them to do. We also think she's a perfect 
example of why we needed our policy and why we needed our 
program.
    I do have some concerns, because I felt when we were 
talking about the new programs she thinks that there is still 
some things out there that are still going wrong through her 
work with victim advocates. So I have offered to meet with her 
to see if I can get more concrete examples to what is happening 
to some of the victims and where it is happening so that we can 
follow up on it.
    I would also like to say I think you saw today the caliber 
of the people we have that are working this program. I can't 
speak highly enough of the SARCs and victim advocates and their 
passion. That is what we find when go out to installations and 
when we work in the field and work with the services.
    I am also happy to share the panel with one of our civilian 
partners. They are in the business of victims advocacy, where 
we are a policy office and we consult with the California 
Coalition Against Sexual Assault and other State coalitions as 
we develop our program. Because we do believe that in the 
civilian world there are some best practices, and in planning 
our program and policy we have worked very hard to use those 
best practices.
    Is there anything specifically you would like?
    [The prepared statement of Dr. Whitley can be found in the 
Appendix on page 64.]
    Mrs. Davis. No, I think that is fine.
    We will continue.
    Ms. Scalzo.
    Ms. Scalzo. I have nothing additional to add to what Dr. 
Whitley said.
    Mrs. Davis. Mr. Coombs.

                   STATEMENT OF ROBERT COOMBS

    Mr. Coombs. Yes. First and foremost, I want to acknowledge 
that I come here as a victim advocate. From my core, that is 
where I operate. I happen to have a professional background in 
working in media and policy, and so when I am working with 
folks like the Department of Defense I have very little 
interest in defending problems that they have had but rather 
seeking solutions.
    We have had a fantastic collaboration with the SAPRO office 
in particular. I have been working with them since about 2006, 
have met with hundreds of SARCs and have done trainings for 
SARCs. I have worked with the Department of Defense Office on 
prevention policy.
    I think that the testimony that you heard earlier today is 
absolutely essential to understand the magnitude of the 
problem. But it is also important to remember that every single 
victim and survivor of sexual assault has a unique experience 
and that, for as much work as is being done within the 
Department of Defense within each of the branches, we always 
will have room to grow in this area. We do as civilians. We do 
when we look to the military. And so I am heartened to see the 
great work that has been done and really tremendous progress, 
more than I ever expected to see. But I also know we have a lot 
of work ahead.
    Mrs. Davis. Thank you.
    I will go on the clock at this time.
    One of the areas that has made a big difference is the 
restricted reporting, and yet we know that there are some 
loopholes essentially in the law that creates some problems 
around that. One issue, Ms. Sanchez mentioned how it might be 
used for career advancement. And yet if there is restricted 
reporting, there are a number of cases that we might not be 
able to track, and so that is essential that there is a comfort 
level around that.
    There is also an example if a victim reported to a friend 
that they had been raped and in fact that friend told the 
commander who then had to go and that changes--that changes and 
the victim essentially loses control over that issue and over 
the decision about whether or not one is going to have it be 
unrestricted at that point.
    Could you talk to us a little bit more about that issue of 
restricted and unrestricted reporting and what you see is the 
next generation of that law, what ought to be included in any 
changes that are made around it?
    Dr. Whitley. I'll let Teresa address that.
    But, first, I would like to say that when the policy began 
in 2005, well, since it has begun, we have had 1,896 victims 
come forward with a restricted report. That tells me that it is 
a good thing and that tells me that that is 1,896 people who 
came forward and got help and the care that they needed, which 
is one of the things we are trying to do in the Department, to 
get victims access to care.
    Mrs. Davis. And perhaps, Ms. Scalzo, if you could just for 
the sake of our audience explain that probably better than I 
could.
    Ms. Scalzo. The Department has two reporting options, 
restricted reporting and unrestricted reporting. Restricted 
reporting is, quite simply, confidential reporting where the 
command and law enforcement are not involved. It was quite 
controversial and very novel when it was created, and it wasn't 
introduced until six months after the policy was initially 
passed.
    In the military, it is a culture where the commanders need 
to know and they do know everything that is going on underneath 
them. It was difficult to construct a system where we could 
protect the victim's privacy but yet give them just a little 
bit of information, Jane Doe information, non-identifying 
information, if you will, that would enable them to keep the 
community safe.
    We know that there are some challenges; and you mentioned 
if a victim reports to a friend and that friend then reports to 
the commander, the victim loses control of their restricted 
report and it is no longer confidential. That is actually one 
of our priority issues for addressing with respect to policy in 
the coming year. That is something that we believe is a policy 
issue, although there are pieces of it that are controlled by 
the UCMJ. In particular, commanders have a duty to report to 
law enforcement; and that is something we are working with the 
lawyers to figure out what the exact parameters are.
    However, I can tell you that some of our biggest challenges 
from restricted reporting come from the civilian community and 
from civilian laws. For example, there are State mandatory 
reporting laws in the State of California that make it 
completely impossible to make a restricted report should the 
victim choose to seek medical care; and those are some of the 
more challenging issues we face because they are not within our 
control.
    Mrs. Davis. Mr. Coombs, did you want to comment on that 
from California's perspective?
    Mr. Coombs. Absolutely. And California has the dubious 
distinction perhaps of being one of the only places on the 
planet where restricted reporting does not work for service 
members. That is specifically because of our adult mandated 
reporting laws coming from medical service providers. It is 
something that we are trying to address, and there is a handful 
of significant obstacles in trying to change that.
    We see restricted reporting as a very progressive move 
coming from the military. It is something that I think 
absolutely you are going to see an increase in the number of 
folks that come forward with unrestricted reports.
    You heard earlier folks were talking about an increase in a 
number of reports, whether restricted or unrestricted is a good 
thing. And from the perspective of victim advocates--I work 
with 85 rape crisis centers throughout the State of California, 
and we have served over 26,000 victims just last year alone. We 
think that is a good thing.
    When those numbers are going up, those are fundamentally a 
positive move. Because it means that, number one, those folks 
are getting services. Number two, it means that there is an 
atmosphere and environment in which people believe that they 
can come forward, that they are safe in doing so. And so if 
restricted reporting enhances that, we are absolutely all for 
it.
    If there is other things that we can do, I think some of 
that could include some of the things that you were hearing 
earlier from the SARCs: better training and better 
communications coming from leadership saying this is something 
that we prioritize, and we would want to make sure that you 
feel safe in coming forward with these things. I think that 
those are some of the areas of growth to look towards.
    Mrs. Davis. Thank you.
    Maybe just a follow up really quickly, if I might. The 
process of someone becoming a SARC, should that be more 
rigorous, less rigorous in terms of people actually 
volunteering essentially to be a part of that?
    Mr. Coombs. From my perspective, I believe that this 
morning you heard from some excellent examples of folks that 
are working out in the field.
    I think that a couple of things that are very difficult for 
recruiting and training SARCs include when you have that as 
collateral duty on top of other types of duties. This is 
something that, for many of us, this is our primary duty. This 
is our primary function. And when you add that on top of other 
jobs, it is really hard for them to have the services and the 
support really to go all into that. I have seen tremendous 
growth from folks supporting those position.
    Mrs. Davis. Thank you, Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman; and thank all 
three of you for being here today. I appreciate your efforts to 
prevent sexual assaults.
    Dr. Whitley, I am very interested in your program. How is 
the Department of Defense evaluating the effectiveness of the 
program? And what criteria are you using to determine success 
or failure in order to make improvements to the program?
    Dr. Whitley. Well, we do an annual report to Congress in 
which we convey to you the aggregate numbers from all the 
services. That does give us some information.
    We also, in terms of measures of compliance, is basically 
what we do now is we go out to check to ensure the policy is 
being followed. We can measure victim care and victim services. 
Are they getting the services they need?
    But one of hardest things to measure is if we are 
preventing it. And as Mr. Coombs was talking about numbers, 
when we have numbers, we don't really know is that a good 
number or a bad number, because we don't know how many sexual 
assaults are out there. But one of the things that we are doing 
now in the Department of Defense, we are developing more 
measures and repeating those measures.
    We have two surveys, two gender relation surveys, that we 
do every two years, one for the active duty force and one for 
the reserve component. That survey asks the respondents, have 
you ever experienced unwanted sexual contact? What we are 
finding is a number of our reports are way lower than the 
number of people who are saying on the survey they have 
experienced that. So now we do have a measure, and we can look 
at the gap between the number of people that are saying they 
experienced to the number of people that are reporting. Our 
goal now is to reduce that gap and to get those victims to come 
forward and to get them the care and the help that they need.
    We also are evaluated consistently through different 
outside organizations. As you know, we always have oversight, 
of course, but the Government Accountability Office (GAO) 
recently did a study on our program, the DOD IG has 
investigated our program. We have had more than one task force, 
and there is one that is currently ongoing right now that will 
be bringing back recommendations for us.
    In terms of measuring success of a sexual assault program, 
that is very difficult to do, especially the prevention aspect.
    Mr. Wilson. Thank you very much.
    And I agree with Mr. Coombs, that the persons we saw in 
uniform were professional, they were competent, capable. It 
makes you so proud of the American military.
    Ms. Scalzo, with American forces deployed in very remote 
areas of the world, how is the program being adapted to, say, 
smaller units in remote areas?
    Ms. Scalzo. The services work individually to whatever 
particular challenges they are facing in that area. They work--
the SARCs job is to figure out how to adapt.
    I can tell you that at a policy level one of the issues 
that we are looking at is what happens in joint environments 
such as those deployed environments. We are in the process of 
drafting policy modifications to make it a little bit clearer 
as to who is responsible for what and to improve that 
situation.
    Mr. Wilson. And with isolated units, whether they be in 
military facilities in Djibouti, on ships in the Persian Gulf, 
Indian Ocean, how in the world do you make this work?
    Ms. Scalzo. Well, certainly it is very complicated. That is 
a very good question. It is complicated, it is challenging, and 
we do our best to make sure that somehow victims have access to 
those services in remote locations. It may take them a few days 
to get them to where they need to go to get those services, but 
we work to make them available. I can't tell you that it is not 
complicated, because it is.
    Mr. Wilson. Again, thank you for your efforts.
    Dr. Whitley, as we have the DOD program before us, again, 
is there any recommendation on any legislative change that you 
feel we should perform?
    Dr. Whitley. There is nothing at this time. We are still 
trying to make sure that we got the policy right. We are still 
examining gaps. So at this time I don't have any 
recommendations for legislation.
    Mr. Wilson. And, again, thank all of you for being here 
today.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    Dr. Whitley, at the end of your written statement we didn't 
give you time to talk about today, you do talk about what you 
call four challenges. It seemed to me that some of them may 
have some legislative possible solutions. I don't want to ask 
you about those now, but maybe before we're done we can have 
you amplify on those four challenges.
    I wanted to ask about one of them, being this issue of the 
civilian adult mandated reporting statutes. Maybe I will ask 
you, Mr. Coombs. How does that work in California? Are military 
doctors required to report under California law, or is it 
civilian doctors who see military personnel that are required 
to report?
    Mr. Coombs. As far as military doctors on base, I would 
have to defer to my colleagues on that.
    Dr. Snyder. Does it require a report?
    Ms. Scalzo. Yes, sir, they are. Doctors are licensed in a 
State, and they have to abide by the State laws in addition 
to----
    Dr. Snyder. Are you telling me any time a doctor is 
transferred to another base they have to go through State 
licensing requirements in that State?
    Ms. Scalzo. No, sir. But the opinion we have gotten from 
our office general counsel is that, because the State of 
California has that law that on base, our doctors, many of whom 
are licensed in California, are not comfortable with compliance 
issues of reporting because it violates California State law.
    In addition, there are a number of bases that have 
concurrent jurisdiction in which State law would apply as well. 
So the only time military doctors would be exempted possibly 
would be if it is an exclusively Federal jurisdiction on that 
base.
    Dr. Snyder. It seems like here we have a California 
advocate who is saying this is not helping sexual assault 
victims. I don't know what is going on in California.
    I was a family doctor in the olden days; and I was 
expecting just a lot of lying that goes on, kind of nudge, 
nudge, wink, wink. A woman comes in who has been sexually 
assaulted or hurt in some way who knows that if she says what 
happened it will be reported. And so they kind of say, oh, you 
fell down the stairs, again? And then if you actually get to a 
criminal case you then have a note in the chart that says the 
woman says she fell down the stairs. I don't see what good 
comes from this, but we are not hearing the other side of that 
today.
    But we do have the option legislatively, I would think, if 
we choose to, of preempting that California statute. But that 
may not be the solution. It really does seem to work against 
the goals that you have with the restricted reporting 
requirement.
    Dr. Whitley or Ms. Scalzo, would you describe for me the 
need-to-know concept, how that works with a commanding officer, 
a commander?
    Dr. Whitley. As we said earlier, it was a hard sell to the 
commanders. They need to know everything that is going on. One 
of the things that we said to the commanders when we were 
putting this policy out is there are sexual assaults that are 
going on in your command right now that you don't know about. 
Wouldn't you at least like to know if one occurred and where it 
occurred so you could take actions to protect your troops? And 
that helped us somewhat with them.
    And so when there is a sexual assault our policy says the 
command is supposed to be notified that a sexual assault took 
place and whatever details that they can give that would not 
give away the identity of the victim. So that way, if it is 
happening in a barracks, maybe they would put more senior 
leadership in the barracks. It gives them other options to 
address the protection of their troops.
    Dr. Snyder. I want to ask you, Dr. Whitley, on page 11 of 
your written statement you talk quite a bit about prevention. 
And it seems--I don't want to say it is idealistic, but I 
appreciate it is a very laudatory goal.
    It reminded me of the time some years ago I was touring 
housing on a military base, and the yards were smaller and the 
houses had smaller square footage. But the personnel said, but 
we don't need as big because we trust the people who live next 
door to us. Our kids can run in the yard next door. It is like 
they have a big yard because we are an Air Force family. It 
seems to me what you are trying to do is augment that whole 
concept that we are a family and take care of each other.
    You have this one statement here, you say there is some 
research that suggests that by educating military members when 
and how to act we may be able to turn bystanders into actors 
who can prevent sexual assault. Would you amplify what that 
means, please?
    Dr. Whitley. Absolutely. And I have to say that most of the 
services do have programs or bystander intervention programs in 
place.
    Most of our assaults, the numbers reported to Congress, 
they are not stranger assaults. They are not this guy jumping 
out of the bushes with a ski mask and a weapon. The majority of 
the assaults are between 18- and 24-year-olds. Usually alcohol 
is involved. Our numbers tell us about a third. We believe it 
is more than that.
    So what we are trying to do is to teach young people if 
they see predator-type behavior to intervene. Because we do 
know there are predators that will use alcohol as a weapon to 
reduce a woman's defenses in order in order to complete a 
sexual assault.
    So one of the things we were trying to do is to make young 
people aware if somebody is mixing really strong drinks for a 
young girl, stop it, intervene. Or if they walk out together 
and it just doesn't look like a good idea, they should take 
care of each other and maybe say we need to go in this 
direction. Let's not go home with him tonight or walk out with 
him tonight.
    So we are trying to give them some warning signs so they 
can see if there is anything they can do to step in. And 
certainly to help them that if something does occur that they 
know exactly what process--if someone crosses the line, they 
need to go see a SARC.
    Does that answer your question?
    Dr. Snyder. Yes.
    Dr. Whitley. It is a very interesting concept, to get 
people to intervene. And we think that it is going to be 
possible in the military because of that same concept that you 
watch out for your battle buddy or your wing man.
    Mrs. Davis. Thank you. Thank you, Dr. Snyder.
    Ms. Tsongas.
    Ms. Tsongas. Thank you very much for your testimony, and I 
would have to say those comments you just made were as 
encouraging as I have heard in the course of this day.
    I would like to go back to the issue of restricted versus 
unrestricted. And you said that, in 2005, 1,896 reports were 
made under this process.
    Dr. Whitley. Have since come forward and reported. Some of 
those may have converted to unrestricted, but that was the 
initial report.
    Ms. Tsongas. So my question is, other than this is a 
wonderful process for the victim, it allows them to get access 
to the kind of help that they need. But short of those who 
don't convert to an unrestricted, it means a significant number 
of people who have committed these assaults are not 
accountable.
    Dr. Whitley. You want me to comment? And I will ask our 
victim advocate to quote, too.
    It is a tough call. We have to balance taking care of a 
victim and holding offenders accountable. I think in the 
situation that we are in, if we can do anything to get a victim 
to get care--I mean, I don't have to repeat things. You all 
have heard over and over and over about what sexual assault 
does to a military unit. It renders them not ready, and it can 
just tear a unit apart and just tears at the very fabric of 
what the military is made of. So if a sexual assault occurs, we 
want to get that victim in there.
    We also know there is research that shows early 
intervention after any trauma can prevent PTSD. So we are doing 
everything we can to get that victim to come forth so they can 
access care. We do hope that they convert. We hope we are 
making them so comfortable and have so much confidence in our 
system that they will convert to an unrestricted report so we 
can go after the offender.
    Ms. Tsongas. The question I have--and I think that is a 
worthy goal for the victim. On the other hand, you have new 
women coming into the military who have no real understanding 
of the threat that might exist. And I am just wondering if 
there is a way in which we can collect data or have some 
understanding of the numbers. I don't know what the answer is, 
but we are focusing on the victim. At the same time, we have 
many young people coming into the services who we want to 
protect. And how we find the balance and how we collect data 
and do something to help either move the victim into an 
unrestricted category or have some other mechanism to deal with 
those that are committing the assaults, I welcome your input on 
that.
    Dr. Whitley. Hopefully, if they are entering the service, 
they are getting sexual assault awareness training very early 
on. That is one step through training.
    Another thing that we do, even if they do have an 
unrestricted report, it is difficult to get victims to stay 
with the military criminal justice process. You heard early 
testimony that when they tell their story if they go 
unrestricted, they may tell their stories 25, 30 times. It is 
very painful, and they drop out. So we have taken some 
measures, too, in terms of training SARCs to support victims 
throughout the military criminal justice process to get them to 
stay with it so we can hold the offender accountable.
    Ms. Tsongas. Thank you.
    Mrs. Davis. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chair; and, Dr. Whitley, thank 
you so much for your testimony and for the others. But, Dr. 
Whitley, it is just so great to hear you with your commitment 
and your heartfelt work on this.
    I serve on the Government Reform Committee, as you know; 
and so I was there for your testimony there. And also the time 
when you were directed by your supervisor not to appear as a 
result of a subpoena that was given. I know you regret that.
    And I just want you to know that so many times when 
something like that happens, when the actual individual comes 
forward and testifies, their testimony is colored by that past. 
And it is somewhat indicating that perhaps they don't have 
something to say but you do. And I appreciate your telling the 
story because I know you're here to help us also to find out 
what is right and you are also dedicated to your program. So 
thank you for continuing to do it and to tell your story.
    One of the things that we heard from Ms. Watterson when she 
told her story was the sense of what happened after being such 
a violation in addition to the sexual assault. And the last 
time you were in my office we talked about the Lauterbach case, 
and you informed me that the Inspector General had been 
requested to take a look at that case about what happened after 
the fact.
    Your principal under secretary, who was your supervisor, 
had requested that IG investigation; and we understand that it 
is ongoing. We have not heard anything from them, and neither 
has the family. That is of a concern to us, because part of 
their independence, of course, should be that they hear from 
all sides and not that we just have a report handed to us.
    We have concerns that are continuing, not just what has 
happened up to the time where Maria was murdered. For example, 
I have two news articles that, with the chairwoman's consent, I 
would like to enter into the record where we know that, just 
recently, the Marines approved the alleged murderer and sexual 
assault----
    Mrs. Davis. Without objection.
    [The information referred to can be found in the Appendix 
on page 86.]
    Mr. Turner [continuing]. Thank you. Went to Mexico to visit 
the individual who was the murderer, and we would like the 
Inspector General to look at the issue of why did the Marines 
approve this.
    Because, basically, we have the Marine wife, who was a 
material witness, leaving the country to visit her husband, who 
is absent without leave (AWOL), who is a Marine, who is the 
alleged rapist-murderer who is fighting extradition, in an 
unsupervised visit where the prosecutors in these articles 
indicate that perhaps it was for a conjugal visit, because 
under Mexico law, on their birthday, apparently, accused can 
have visits from their spouses; and there is concern by the 
prosecutor of what that would do to her willingness and 
interest in testifying. So we would like to ask them to include 
things like that.
    Is it your experience where the IG has been asked to look 
at a case if you are aware of any other cases where they would 
conduct their whole investigation and never speak to the family 
members?
    Dr. Whitley. I don't really--I don't know. I don't have a 
response to that. That sounds unusual to me.
    Mr. Turner. That is what I would think. We have a letter 
that I sent today to the IG requesting that they engage, and 
any thoughts that you have even after this hearing I would 
appreciate it.
    Dr. Whitley. I have to tell you, sir, the DOD IG has been 
directed to stand down, and they are not investigating this 
case. They believe it could have undue command influence, so 
that investigation has been stopped.
    Mr. Turner. Well, once again, I am only hearing information 
from you. Because I have correspondence to my office that, in 
fact, the IG had accepted the case and was going forward. And I 
have no communication indicating that----
    Dr. Whitley. They did accept it. And I think they started 
forward with that case, and then they were advised by the 
lawyers to stand down.
    Mr. Turner. See, Dr. Whitley, this goes right to the issue 
that I talk about, the culture in the military. How is it that, 
a Member of Congress--I have requested that they begin an 
investigation. Your supervisor requested it. I get a letter 
confirming that they have undertaken the investigation, and 
then you relate it us that it is not going forward. It is very 
concerning.
    Dr. Whitley. I know it doesn't sound palatable. But what we 
are told by the lawyers, even though this is a civilian case, 
if, God forbid, anything went wrong and there was a mistrial 
declared or anything ever got kicked back to us as a military 
case, anything that we had done could have undue command 
influence. And so I thought that was one of the reasons, I 
believe. I am sorry if you were not--I assumed you had been 
notified of that.
    Mr. Turner. That is astonishing. Thank you, Dr. Whitley.
    If I could have just a few more minutes, one of the things 
that the Lauterbach family has been concerned about in this 
whole process is that the victim advocates perhaps were just 
perhaps victim listeners and don't have real authority and 
ability to affect the process. Do you have concerns about the 
lack of authority in the process?
    Dr. Whitley. Well, the program is still very new; and we 
are still implementing training for all the victim advocates 
and the SARCs. The victim advocate should work directly for a 
SARC; and the SARC has a lot of power, if you will, to have 
access to a commander to intervene. That was the way the 
program was set up.
    I can't speak to each and every SARC. We have 2 million 
people, including Guard and Reserves, that are taken care of by 
our SARCs and victim advocates. I can't speak to each and every 
case. I hope and believe in my heart of hearts that most are 
like the ones that you saw today.
    Mr. Turner. Thank you.
    Thank you, Madam Chair.
    Mrs. Davis. Dr. Snyder, did you want to ask a question?
    Dr. Snyder. Dr. Whitley, would you take some time and 
amplify your four challenges at the end? You haven't really 
talked about those.
    Dr. Whitley. Whenever I talk about things that are 
lawyerly, I bring a lawyer. So I am going to ask Ms. Scalzo, 
because as my senior policy adviser she heads up a subcommittee 
that works under the Sexual Assault Advisory Council, which is 
headed by the Under Secretary for Defense. He established 
committees to look at some of these issues. The committees have 
members from all of the services as well as some of our Federal 
partners and civilian partners. Teresa heads that committee and 
these are some of the issues that they have identified that 
they are currently working on, and she can speak in great 
detail about each of them.
    Ms. Scalzo. Thank you, Representative Snyder.
    Dr. Snyder. All of the great detail you can do in four 
minutes.
    Ms. Scalzo. The first challenge was the State mandatory 
reporting laws that we have already discussed. The second would 
be jurisdictional challenges. Our SARCs and victim advocates 
have to collaborate with civilians. As you know, the military 
does not always control the prosecution. For example, it could 
be a civilian perpetrator, or if the case happened off base, 
the civilians would have the first option to prosecute that 
case. In those sort of circumstances, we are constrained by 
what is going on in the civilian world and, frankly, it is not 
always perfect.
    I come from a background of being a civilian prosecutor and 
training prosecutors across the country. The example that we 
use to illustrate that is a case that happened in the D.C. 
metro area where D.C. had primary jurisdiction. Our victim was 
at Bethesda waiting to have a sexual assault forensic exam, but 
because D.C. had a rule that their Sexual Assault Forensic 
Examiner (SAFE) exams had to be performed within D.C., our 
victim had to be transported to D.C., had to then wait 
approximately eight hours to be served, and then in the end 
D.C. refused to prosecute the case. So we ended up picking it 
up.
    SARC and victim advocates have to work to coordinate that, 
and they do, but we raise that so that you understand some of 
the jurisdictional complications that we face that are enhanced 
when you are dealing with Federal/military/state collaboration.
    The second issue is the line of duty issue. If a Guard or 
Reserve member is assaulted while they are in active status or 
in active duty training and then seeks care when they are no 
longer in activated status, they need to get what is called a 
line of duty in order to get care and treatment. That is not 
consistent with the restricted reporting policy simply because 
of the process. It is a public process where the command is 
involved, and there needs to be an investigation.
    What we have done is we modified our policy to require the 
services to rewrite their policy to ensure that line of duty 
can be accessed to sexual assault victims in a private manner, 
just a limited line of duty for just care for victims of sexual 
assault.
    The final piece is the investigation and prosecution of 
sexual assault--which I understand there will be an entirely 
separate hearing on--but the challenge there that we have been 
looking at is are our investigators and prosecutors trained 
well enough. We are working with our legal community to take a 
look at that, and we do what we can at SAPRO, although the UCMJ 
provides the JAG, the Judge Advocate Generals, with complete 
authority over the legal piece of the process. We at SAPRO do 
try to interface with them, try to make sure that they are 
being as sensitive to victim practices as possible, make sure 
that we support them and that they are supporting victims as 
much as we are able to do.
    Dr. Snyder. I am confused on the line of duty issue. If a 
person is activated or they are on their two-week training in 
the summertime, an incident occurred on the last night's going-
away party, they very clearly know, everyone knows when the 
incident occurred, 1:00 a.m., May 3rd. Why is there any big 
whoop-dee-do? Shouldn't it just be based on when the incident 
occurred?
    Ms. Scalzo. It is based on when the incident occurred. The 
challenge is if they report when they are not in an active 
status, they are not eligible for medical benefits at that 
time; they are not eligible for treatment. Our policy makes 
them eligible for care and treatment. But because of the way 
the Guard and Reserve works, if they are not in an active 
status, they need that line of duty finding to get care.
    So it is a method of getting them care when they are not 
under the insurance of the Guard and Reserves.
    Dr. Snyder. That would seem like something that could be 
pretty easily corrected.
    Ms. Scalzo. You would think.
    The challenge is that our policy controls sexual assault, 
and within the Department of Defense there are many different 
directives that control different pieces of things. Line of 
duty is a separate policy. So in order to have it rewritten, we 
need to follow the bureaucratic steps of getting our policy 
rewritten to have them rewrite their policies. So we are in the 
process of getting that done.
    It took a while, actually, just to identify and solve how 
to figure it out because it is such an unusual idea, the 
concept that you can report something privately. Restricted 
reporting is just so out of the box that sometimes these 
complexities arise, and that is a perfect example.
    Mrs. Davis. I think we are going to wind up on this. I am 
going to ask one or two more questions, and I understand that 
there aren't any more questions that my colleagues have.
    I am looking at the Government Accountability Office report 
of 2008, and in that it talks about the fact that the military 
services haven't really provided the data that would facilitate 
oversight and enable the DOD to conduct trend analyses; and I 
know in the last authorizing bill we included language to move 
that collection of data forward.
    Where is that? And we are waiting to get more information 
about it. What can you tell us?
    Dr. Whitley. We recently sent the plan for that database to 
Congress. We had a working group, and it was composed of the 
services and a member of my staff to design a database that 
would do what we need it to do. We have the money for it. It is 
going to take us about a year to get it up and running.
    I think one of the issues I would like to talk about as far 
as data, when our program first stood up, we were required to 
report aggregate numbers, and that we have been doing. But as 
the program has grown, we are realizing we need the ability to 
look at this data in a lot of different ways because it gives 
us information that has policy implications.
    For example, by installation. And I often would get 
questions from the Hill, How many military-on-military sexual 
assaults took place at training brigades in CONUS. And I could 
not slice and dice the data that way. I would have to go back 
to the services. I could get it, but it was almost like a 
stubby pencil technique to get that type of data.
    Hopefully when this database is up and running, we will be 
able to look at the data in a lot of different ways. But we 
were reporting just aggregate numbers of reports. And that 
paper has been sent with explaining the plan of setting that 
up.
    Mrs. Davis. Once we have the database, do you believe that 
we will be able to, in as transparent a way as possible, 
understand the effectiveness of programs that we have 
undertaken?
    Dr. Whitley. I think it will be very helpful. I go back to 
what I said earlier about the surveys that we have that are 
telling us how many people are reporting anonymously on surveys 
about experiences, be able to look at that and compare that to 
the number of reports. And that is going to tell us if we are 
reaching the population. It is really hard to measure, I guess 
you would call it, prevalence versus incidents. So this will 
give us a better idea of that.
    Mrs. Davis. Thank you.
    Mr. Coombs, from your perspective in California, how is the 
military doing in terms of other victims support advocacy 
programs? How does it compare?
    Mr. Coombs. Well, as I was listening to all of these 
questions, I started thinking about what it would like look if 
you had me up here talking on behalf of rape crisis centers, 
and all of these questions that you are asking are questions 
that we would also ask of civilians. And frankly, there are 
some of the same problems in the civilian world. We have some 
of the same battles over jurisdiction. We have some of the same 
trouble with lack of training with certain victim advocates and 
the folks that they work with.
    I think that when you compare our movement, the sexual 
assault prevention and intervention movement, our field, and 
you look at the 30 years, the 30-plus years that they have been 
working on this, to see the progress that has been made in the 
military in 5 years is outstanding. I mean, they have really 
done an outstanding job.
    That being said, I think that there has to be ongoing 
collaboration between military and civilian communities that 
every single day civilian victim advocates are learning more 
about how we do this work, how we provide the very best 
services for victims and survivors and also, frankly, how it is 
that we do better work with sex offender management.
    So that learning experience is something that is going on 
in the civilian world right now. We want to make sure that we 
continue that collaboration so that we can share that 
information. We can create new policies, we can enhance the new 
types of services in the military.
    Mrs. Davis. One of the things that I know is happening in 
all of the services, although I reference the Army for a 
second, is trying to provide better expertise, really using the 
resources that are at hand. And there is a sense that we 
haven't done that, that perhaps we haven't sought out those 
folks who are really at the top of their game in this and that 
we are doing that now and that is starting to move forward.
    I think the other piece, which we will hear about at 
another hearing, is just the education one. I mean, the idea 
here it seems to me is to prevent all of this. We obviously 
mirror society, so we are not going to wipe this out entirely. 
But having the kinds of educational programs as people enter 
the services, the kinds of screening that is appropriate, and 
to really lay down the law in many ways, that this is not 
acceptable, absolutely not acceptable. And everybody has to be 
a partner in making certain that people are kept safe in all 
places when they are devoting their lives to keeping the 
country safe. We have people who are not feeling safe in the 
services.
    And so I think more needs to be done in that area. And the 
greatest thing would be to throw you all out of business, 
essentially. We are not going to do that, but that would be 
something that would be very positive.
    Dr. Snyder has a question quickly.
    Dr. Snyder. Regarding getting the restricted reporting 
requirement, I assume that there is an age of minority below 
which the restricted reporting requirement would not apply?
    Ms. Scalzo. Under the sexual assault policy at this point 
in time only service members are eligible for restricted 
reporting.
    Dr. Snyder. Family members are not?
    Ms. Scalzo. There is a domestic violence policy which the 
family advocacy program has oversight over which does give 
restricted reporting to family members. I am not an expert on 
that. My understanding is that it is only for adults and it 
comes in conflict with----
    Dr. Snyder. The mandatory reporting requirements of 
children.
    Ms. Scalzo. For the purposes of sexual assault under 
SAPRO's policy, it is just service member victims.
    Mrs. Davis. I want to give you a moment. Is there anything 
in your introductory remarks that you might have said that you 
want to be sure that we heard before we close down?
    Okay. Great. Thank you so much. We appreciate your being 
here and especially responding to our first panel. Thank you 
very much.
    [Whereupon, at 2:03 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 28, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 28, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9634.001
    
    [GRAPHIC] [TIFF OMITTED] T9634.002
    
    [GRAPHIC] [TIFF OMITTED] T9634.003
    
    [GRAPHIC] [TIFF OMITTED] T9634.004
    
    [GRAPHIC] [TIFF OMITTED] T9634.005
    
    [GRAPHIC] [TIFF OMITTED] T9634.006
    
    [GRAPHIC] [TIFF OMITTED] T9634.007
    
    [GRAPHIC] [TIFF OMITTED] T9634.008
    
    [GRAPHIC] [TIFF OMITTED] T9634.009
    
    [GRAPHIC] [TIFF OMITTED] T9634.010
    
    [GRAPHIC] [TIFF OMITTED] T9634.011
    
    [GRAPHIC] [TIFF OMITTED] T9634.012
    
    [GRAPHIC] [TIFF OMITTED] T9634.013
    
    [GRAPHIC] [TIFF OMITTED] T9634.014
    
    [GRAPHIC] [TIFF OMITTED] T9634.015
    
    [GRAPHIC] [TIFF OMITTED] T9634.016
    
    [GRAPHIC] [TIFF OMITTED] T9634.017
    
    [GRAPHIC] [TIFF OMITTED] T9634.018
    
    [GRAPHIC] [TIFF OMITTED] T9634.019
    
    [GRAPHIC] [TIFF OMITTED] T9634.020
    
    [GRAPHIC] [TIFF OMITTED] T9634.021
    
    [GRAPHIC] [TIFF OMITTED] T9634.022
    
    [GRAPHIC] [TIFF OMITTED] T9634.023
    
    [GRAPHIC] [TIFF OMITTED] T9634.024
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 28, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T9634.025
    
    [GRAPHIC] [TIFF OMITTED] T9634.026
    
    [GRAPHIC] [TIFF OMITTED] T9634.027
    
    [GRAPHIC] [TIFF OMITTED] T9634.028
    
    [GRAPHIC] [TIFF OMITTED] T9634.029
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 28, 2009

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. TSONGAS

    Sergeant Horwath. For FY07, there were 768 Soldiers with founded 
sexual assault offenses. Of the 768 Soldier subjects, 182 were senior 
in rank to the victim. Of those 182 subjects, 136 were in the same unit 
(battalion-sized unit or smaller).
    For FY08, there were 619 Soldiers with founded sexual assault 
offenses. Of the 619 Soldier subjects, 127 were senior in rank to the 
victim. Of those 127 subjects, 92 were in the same unit (battalion-
sized unit or smaller).
    Caveats:

    1.  The ranks E1 through E4 were treated as one pay band, and were 
not counted in the superior-junior ratings above.

    2.  There are a number of FY08 cases still open and active; 
therefore, no final Founded/Unfounded decision has been made on those 
cases. Thus, the numbers of subjects for FY08 is subject to change. 
[See page 26.]

    Chief Petty Officer McKennie. The requested data is presented in 
table format for ease of reference. Have also included the statistics 
for E-5 and below for consistency with earlier response. [See page 26.]



                                                                                                  US Navy

                                                                                             FY07        FY08

Total # of Investigations Involving Service Member on Service Member reports \1\                176         196
  # of Victim Reports (Victim Subordinate in Rank to Subject):                                   87          83
  # of Victim Reports (Subject Subordinate in Rank to Victim):                                   15          16
  # of Victim Reports (Victim and Subject were Same Rank):                                       26          49
  # of Victim Reports (NFI) \2\:                                                                 56          65

Total # of Service Member Subjects                                                              195         212

Statutory Basis - # Of Investigations for Disposition of Subjects                               176         196
  # UCMJ                                                                                        162         185
  # Civilian                                                                                     14          11

Total # of Service Member Subjects \3\                                                          195         212
Total # of Service Member Subjects--E-4 and Below                                                69          89
Total # of Service Member Subjects--E-5 and Below                                                92         121

Total # of Service Member Victims \4\                                                           184         213
Total # of Service Member Victims--E-4 and Below                                                148         172
Total # of Service Member Victims--E-5 and Below                                                169         191

_______


\1\ Taken from the total number of unrestricted reports in the Annual SAPRO submissions for FY07 & FY08. This
  total does not include the following types of reports: Non-Service on Service, Service on Non-Service, or
  Unidentified on Service. Investigations may include more then one subject and/or victim.
\2\ NFI--No Further Information provided--Either the rank of the subject and/or victim is not available to make
  a determination for the report to be placed in one of the previous three categories.
\3\ Includes Subjects from other services and those whose ranks are higher than E5 or for which NFI was
  available.
\4\ Total number of Victim reports include those made by other service members and those with ranks higher than
  E5.

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 28, 2009

=======================================================================

      
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. Are moral waivers being granted to individuals who 
have been convicted of sexual misconduct? If so, how many people have 
received moral waivers and what are the criteria for waivers to be 
granted?
    Dr. Whitley. Conduct waivers are considered for individuals 
involved in offenses involving sexual misconduct regardless of the 
case's final disposition. Whether a finding of guilt was rendered or 
there was some other court-ordered action, the Department requires the 
Services to carefully review each case before granting a waiver. The 
number of people that were allowed to join with a conduct waiver for 
sexual misconduct is still being researched/reviewed by the Services. 
That information will be provided as soon as it is available.
    Ms. Shea-Porter. Is there, or will there be a way to track 
individuals that have been convicted of sexual misconduct and granted 
waivers in the Sexual Assault Incident Reporting Database?
    Dr. Whitley. No, there will not be tracking of individuals that 
have been convicted of sexual misconduct and granted waivers (for 
accession into the Armed Forces) in the Sexual Assault Incident 
Reporting Database--which is now known as the Defense Sexual Assault 
Incident Database, or DSAID.
    The Department and each of the personnel components of the Military 
Services already have a method for recording, coding and identifying 
the locations of military members who have been granted misconduct 
waivers at accession. The Under Secretary of Defense for Personnel and 
Readiness has tasked the office of Military Personnel Policy to manage 
information associated with misconduct waivers.

                                  <all>

</pre></body></html>
